                                              UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-CG-14-31                                     Office of Audits                                      August 2014




   Audit of the Administration and Oversight
            of Contracts and Grants
     Within the Bureau of African Affairs




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                              UNCLASSIFIED
                                    UNCLASSIFIED


Acronyms
AF       Bureau of African Affairs
A/LM/AQM Bureau of Administration, Office of Logistics Management, Office of
         Acquisitions Management
A/OPE    Bureau of Administration, Office of the Procurement Executive
CO       Contracting Officer
COR      Contracting Officer’s Representative
DOSAR    Department of State Acquisition Regulations
FAC-COR  Federal Acquisition Certification for Contracting Officer’s Representatives
FAH      Foreign Affairs Handbook
FAR      Federal Acquisition Regulation
FPDS     Federal Procurement Data System
GO       Grants Officer
GOR      Grants Officer Representative
GPD      Grants Policy Directive
GTM      Government Technical Monitor
OIG      Office of Inspector General
OMB      Office of Management and Budget




                                    UNCLASSIFIED
                                                          UNCLASSIFIED


                                                       Table of Contents
Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................2

Objective……. .................................................................................................................................7

Audit Results ..................................................................................................................................7

           Finding A. Improvements Needed for Comprehensive Administration and
              Oversight of Bureau of African Affairs Contracts ..........................................................7
           Finding B. Improvements Needed for Comprehensive Administration and
             Oversight of Bureau of African Affairs Grants .............................................................20

List of Recommendations ..............................................................................................................37

Appendix

           A. Scope and Methodology................................................................................................41
           B. Bureau of Administration, Office of the Procurement Executive’s Response to
              Draft Report…...............................................................................................................45
           C. Bureau of African Affairs’ Response to Draft Report…..............................................48

Major Contributors to This Report ................................................................................................57




                                                          UNCLASSIFIED
                                              UNCLASSIFIED


                                          Executive Summary
        From FY 2010 through FY 2012, the Bureau of African Affairs (AF) funded
$359 million in contracts and $70 million in grants awarded domestically.1 AF is responsible for
administering and overseeing each of its contracts and grants and it uses Contracting Officer’s
Representatives (COR), Grants Officer Representatives (GOR), Government Technical Monitors
(GTM), and site coordinators to perform these oversight functions. Federal laws and Department
of State (Department) guidance outline the requirements and best practices that oversight
personnel should follow to safeguard taxpayer dollars and to help prevent fraud, waste, and
abuse related to Federal contracts and grants.

       The Office of Inspector General (OIG) initiated this audit to address concerns raised in
prior OIG reports about the adequacy of contract and grant administration and oversight
performed by AF personnel. The primary objective of this audit was to determine to what extent
AF’s administration and oversight of contracts and grants were in accordance with applicable
Federal laws and Department guidance.

        To achieve this objective, OIG selected a judgment sample of eight high-risk and
medium-risk contracts2 and a judgment sample of eight high-dollar-value grants administered by
AF. OIG identified numerous deficiencies within AF’s oversight of its contracts and grants that
may have inhibited the AF’s ability to achieve its mission. For example, AF oversight personnel
in Sierra Leone accepted the purchase of equipment that did not meet contract specifications
used for the African Union and United Nations peacekeeping missions. On another contract,
AF’s oversight personnel accepted a latrine that did not conform to contract requirements
supporting the Peace Support Operations Training Center located at Camp Hasting in
Sierra Leone. Similar conditions existed with the grants OIG reviewed. For instance, AF
oversight personnel did not identify the misuse of grant funds intended to advance the economic
and social empowerment of women in Uganda. As a result, the Department may not always
have had reasonable assurance that AF spent Federal funds in accordance with its contract and
grant awards, that recipients performed program activities as dictated in the contract and grant
awards, and that recipients achieved the goals and objectives outlined in their contracts and
grants. Without appropriate oversight, AF could not ensure that it achieved its mission of
supporting African democracy, economic growth, conflict prevention, counterterrorism, and of
improving global health.

       To improve the administration and oversight of AF’s contracts and grants, we made
2 recommendations to the Bureau of Administration, Office of the Procurement Executive
(A/OPE) and 22 recommendations to AF. OIG provided A/OPE and AF a draft of this report on
June 13, 2014. In its June 27, 2014, response (see Appendix B) to the draft report, A/OPE

1
  OIG identified its universe of grants from data provided by the Bureau of Administration, Office of Logistics
Management, Office of Acquisitions Management (A/LM/AQM), which did not include AF grants directly awarded
at posts.
2
  The high-risk contracts included cost-reimbursement types of contracts, which require greater oversight to ensure
costs are allowable per contract terms; and the medium-risk contracts included combination contracts, which use
multiple types of contract line items including firm-fixed price and cost-reimbursement.

                                                         1

                                              UNCLASSIFIED
                                       UNCLASSIFIED

concurred with the two recommendations addressed to it. Based on A/OPE’s management
response to the draft report, OIG considers both recommendations resolved pending further
action.

        In its July 11, 2014, response (see Appendix C) to the draft report, AF concurred with 21
recommendations and provided a pending concurrence for Recommendation 5. Based on AF’s
management responses, OIG considers 21 of the 22 recommendations to AF resolved pending
further action. OIG considers Recommendation 5 unresolved because AF indicated that it plans
to continue using site coordinators to assist with contract oversight until A/OPE issues guidance
on the subject, which does not meet the intention of the recommendation. This recommendation
can be resolved and closed when OIG reviews and accepts documentation demonstrating that AF
discontinued its use of site coordinators and has developed and implemented processes to ensure
that certified CORs and GTMs are officially delegated to conduct oversight of assigned
contracts.

      Management’s responses and OIG’s replies to these responses are included after each
recommendation.
                                         Background
Bureau of African Affairs

       The United States has had diplomatic and consular representation in Africa since the
1950s, when many African states began to attain their independence. During that period, the
Department established AF to manage U.S. relations within the African continent. Today, the
mission of AF focuses on the development and management of U.S. policy concerning the
continent. To achieve its mission, AF established five pillars that serve as the foundation of
U.S. policy toward Africa:

       1. Support for democracy and the strengthening of democratic institutions on the
          continent, including free, fair, and transparent elections.
       2. Supporting African economic growth and development.
       3. Conflict prevention, mitigation, and resolution.
       4. Supporting Presidential initiatives such as the Global Health Initiative, Feed the
          Future, and the Global Climate Change Initiative.
       5. Working with African nations on transnational issues such as drug smuggling, money
          laundering, illicit arms, and trafficking in persons.

       Figure 1 depicts AF’s organizational structure, including AF’s regionalized and
functional divisions. OIG selected contracts and grants within AF’s West and East Divisions.
AF West countries include Sierra Leone, Liberia, and, Mauritania, and AF East includes Uganda.




                                                2

                                       UNCLASSIFIED
                                             UNCLASSIFIED


Figure 1. Bureau of African Affairs Organizational Chart




Source: OIG downloaded AF’s organization chart on October 31, 2013, from the Department’s Intranet.

Contract Administration and Oversight

        From FY 2010 through FY 2012, AF funded $359 million in contracts. AF awards its
contracts through the Bureau of Administration, Office of Logistics Management, Office of
Acquisitions Management (A/LM/AQM). Contracts administered through AF cover a wide
array of products and services to achieve the five pillars of U.S. policy for Africa.

        To assess AF’s administration and oversight of its contracts, OIG selected a judgment
sample of eight high-risk and medium-risk contracts valued at $34.8 million that were funded
during FY 2010 through FY 2012 and that were performed in the African countries of
Sierra Leone, Liberia, and Mauritania. A synopsis of each contract follows:

           SAQMMA12F0313 was awarded for $547,929.00 to upgrade the water system – to
            include a water distribution system, latrine, and shower facility – at the Peace Support
            Operations Training Center at Camp Hastings in Sierra Leone.
           SAQMMA11F3349 was awarded for $527,194.00 for the construction of an arms
            storage building, upgrades to the existing motor pool, and construction of four field
            classrooms at the Peace Support Operations Training Center at Camp Hastings in
            Sierra Leone, which will advance the effectiveness of Sierra Leonean Peace Support


                                                      3

                                             UNCLASSIFIED
                                      UNCLASSIFIED

           training and contribute to Sierra Leonean self-sufficiency and full-operating
           capability.
          SAQMMA12F4836 was awarded for $5,320,004.65 to provide operation and
           maintenance support for “the Depot” in Freetown, Sierra Leone. The Depot provides
           support for African Union and United Nations peacekeeping missions and is critical
           to strengthening the capacity of African nations to prevent, mitigate, and resolve
           conflicts in Africa.
          SAQMMA12F0545 was awarded for $174,374.38 to provide a Senior Security
           Advisor to assist the Liberian Executive Protection Service in developing its
           institutional capacity, with the goals of correcting gaps in the leadership and
           management capacity and bringing the Liberian Executive Protective Service to a
           self-sustaining professional protection agency.
          SAQMMA12F1583 was awarded for $3,404,396.07 to provide logistical support for
           approximately 60 U.S. uniformed mentors located in Liberia and to enhance the
           capability and professionalism of the Armed Forces of Liberia.
          SAQMMA10F0569 was awarded for $16,684,285.80 to provide operation and
           maintenance support at Camp Ware and Camp Edward B. Kessely in Liberia, both of
           which the U.S. Government recently refurbished. Upgrades included maintaining the
           existing electrical power grid, establishing the guard force for both camps,
           maintaining all water-well equipment, and maintaining small arms and other light
           weapons until the U.S. Government formally transferred the arms and weapons to the
           Government of Liberia.
          SAQMMA12F2030 was awarded for $656,330.00 to provide equipment, materials,
           and services essential to support and sustain the Trans-Sahara Counterterrorism
           Partnership presence in Mauritania and other countries.
          SAQMMA12F4917 was awarded for $7,523,859.00 to equip and train the Mauritania
           and Niger militaries to execute counterterrorism operations within the borders of
           Mauritania and Niger, and in collaboration with other regional forces.

       OIG compared AF’s administration and oversight of the contracts listed with Federal and
Department guidance to determine the extent to which administration and oversight were
conducted in accordance with applicable laws and guidance. The Federal Acquisition
Regulation (FAR) establishes the uniform policies and procedures for acquisition by all
executive agencies, and the Department supplements the FAR through the Foreign Affairs
Handbook (FAH), Department of State Acquisition Regulations (DOSAR), and Procurement
Information Bulletins.

Key Oversight Personnel – Contracts

       FAR and Department regulations describe the roles and responsibilities of Government
personnel who are responsible for awarding, administering, and overseeing contracts.




                                              4

                                      UNCLASSIFIED
                                             UNCLASSIFIED


        Contracting Officer

        The contracting officer (CO) is the U.S. Government’s authorized agent for dealing with
contractors and has sole authority to solicit proposals; negotiate, award, administer, modify, or
terminate contracts; and make related determinations and findings on behalf of the
U.S. Government. The CO performs duties at the request of the requirements office and relies
on that office for technical advice concerning the supplies or services being acquired.3

        Contracting Officer’s Representative

        A CO may designate technically qualified personnel as CORs to be the CO’s authorized
representatives to assist in the administration of contracts. CORs are responsible for oversight,
inspection, and acceptance of goods, services, and construction. The COR has no authority to
make any commitments or changes that affect price, quality, quantity, delivery, or other terms
and conditions of the contract.4 A COR must be a U.S. Government employee unless A/OPE has
approved alternate procedures (for example, has allowed personal services contractors to serve as
CORs).5

        Government Technical Monitor

        The CO may appoint a GTM to assist the COR in monitoring a contractor’s performance
because of a GTM’s physical proximity to the contractor’s work site or because of the GTM’s
special skills or knowledge necessary for monitoring the contractor’s work. A GTM may also be
appointed to represent the interests of another requirements office or post concerned with the
contractor’s work,6 which therefore requires the GTM to be a direct-hire U.S. Government
employee or an individual hired under a personal services agreement or a personal services
contract.

Grants Administration and Oversight

        From FY 2010 through FY 2012, AF funded $70 million in grants awarded domestically7
through A/LM/AQM. Grants administered by AF covered a wide array of products and services
to achieve the five pillars of U.S. policy for Africa.

       To assess AF’s administration and oversight of its grants, OIG selected a judgment
sample of eight cooperative agreements8 or grants valued at $32.2 million that were funded from


3
  14 FAH-2 H-141, “Responsibilities of the Contracting Officer.”
4
  FAR 1.602-2, “Responsibilities.”
5
  14 FAH-2 H-143, “Designating a Contracting Officer’s Representative (COR).” 14 FAH-2 H-113b, “Qualifying as
a COR: Federal Acquisition Certification: Contracting Officer’s Representative.”
6
  DOSAR 642.271, “Government Technical Monitors.”
7
  OIG identified its universe of grants from data provided by A/LM/AQM, which did not include AF grants directly
awarded at posts.
8
  Cooperative agreements are referred to as grants for the remainder of this report.

                                                       5

                                             UNCLASSIFIED
                                           UNCLASSIFIED

FY 2010 through FY 2012 and performed in the African countries of Uganda, Liberia, and
Mauritania. A synopsis of each grant follows:

        S-LMAQM-12-CA-1100 was awarded for $440,807.00 to organize a security reform
         symposium in Liberia, securing the symposium site and the accommodations for all the
         African participants, facilitators, and guest speakers.
        S-LMAQM-11-GR-005 was awarded for $356,207.27 for the Government of Liberia to
         receive and use equipment donated by the United States for official business.
        S-LMAQM-11-GR-071 was awarded for $267,300.00 to fund a Youth-at-risk study trip
         for 15 Mauritanians to travel to the United States to meet with people and representatives
         of organizations working to reintegrate troubled youth in society.
        S-LMAQM-11-GR-047 was awarded for $2,868,030.00 to provide training, equipment,
         and technical assistance for three vocational schools in Mauritania to train youth who are
         vulnerable to radicalization.
        S-LMAQM-12-GR-1217 was awarded for $199,950.00 to contribute to the economic and
         social empowerment of women in Uganda by strengthening their ability to transition
         from students to the workplace and adulthood.
        S-LMAQM-10-GR-005 was awarded for $5,946,000.00 to provide pharmaceuticals and
         medical supplies to support the civic outreach programs of the African Union Mission to
         Somalia, specifically by delivering medical care to the people of Mogadishu through
         health clinics.
        S-LMAQM-10-GR-019 was awarded for $4,000,000.00 for military advisers to the
         Transitional Federal Government military commander to provide tactical, operational,
         and strategic advice to counter insurgent activity on the ground.
        S-LMAQM-11-CA-084 was awarded for $18,074,851.00 and performed in Uganda to
         assist the African Union Mission in Somalia with developing operational enhancements
         to improve force protection and mission effectiveness and reduce casualties from
         insurgent terror and warfare tactics.

        OIG compared AF’s administration and oversight of these grants with Federal and
Department guidance to determine the extent to which administration and oversight were
conducted in accordance with applicable laws and guidance. Office of Management and Budget
(OMB) Circular No. A-102,9 No. A-110,10 and No. A-13311 shape the policies and practices
Federal agencies use for the grants we reviewed. The Department provides internal guidance,
policies, and standards for grants in its Federal Assistance Policy Handbook and Grants Policy
Directives (GPD).




9
  OMB Circular No. A-102, Grants and Cooperative Agreements With State and Local Governments.
10
   OMB Circular No. A-110, Uniform Administrative Requirements for Grants and Other Agreements with
Institutions of Higher Education, Hospitals and Other Non-Profit Organizations.
11
   OMB Circular No. A-133, Audits of States, Local Governments, and Non-Profit Organizations.

                                                     6

                                           UNCLASSIFIED
                                                UNCLASSIFIED


Key Oversight Personnel – Grants

       Department Directives describe the roles and responsibilities of Government personnel
assigned responsibility for awarding, administering, and overseeing grants.

           Grants Officer

        The grants officer (GO) is authorized by certificate of appointment issued by A/OPE to
award, amend, and terminate a Federal assistance agreement. The GO is responsible for
exercising prudent management over assistance funds.12

           Grants Officer Representative

        Upon award, Department policy states that the GO shall designate a GOR for all grant
awards exceeding $100,000. The GOR is certified by the Bureau of Administration, Office of
the Procurement Executive, Federal Assistance Division, and designated, in writing, by the GO
to oversee certain aspects of a specific assistance agreement from the award’s inception through
close-out. This authority is not re-delegable other than as specified in the GOR’s designation
letter. The GOR assists the GO with ensuring that the Department exercises prudent
management and oversight of the award through the monitoring and evaluation of the recipient’s
performance.13

                                                    Objective
        The primary objective of the audit was to determine to what extent AF’s administration
and oversight of contracts and grants were in accordance with Federal laws and Department of
State guidance. (The scope and methodology of the audit are detailed in Appendix A.)

                                                 Audit Results

Finding A. Improvements Needed for Comprehensive Administration and
Oversight of Bureau of African Affairs Contracts

Based on our review of eight AF contracts, OIG identified five areas in which AF did not always
administer or oversee its contracts in accordance with Federal laws and Department guidance.
Specifically, AF did not (1) ensure that a certified COR was assigned throughout the lifecycle of
the contract, (2) use GTMs on site to monitor contractor performance, (3) develop contract
monitoring plans, (4) perform and document site visits to validate recipient performance, and (5)
ensure the accessibility and completeness of COR files. The identified deficiencies as they
correspond to the eight contracts reviewed are shown in Table 1.


12
     GPD 28, rev. 1, “Roles and Responsibilities for the Award and Administration of Federal Assistance.”
13
     GPD 16, rev. 3, “Designation of Grants Officer Representatives.”

                                                           7

                                                UNCLASSIFIED
                                                 UNCLASSIFIED


Table 1. Contract Deficiencies Identified and the Eight Contracts Reviewed
                                                                                              Contracts Reviewed*




                                                                          SAQMMA11F3349


                                                                                          SAQMMA12F4836


                                                                                                          SAQMMA12F0545


                                                                                                                          SAQMMA12F1583


                                                                                                                                          SAQMMA10F0569


                                                                                                                                                          SAQMMA12F2030


                                                                                                                                                                          SAQMMA12F4917
                                                      SAQMMA12F0313
            Identified Deficiencies
    No COR Delegation for Contract
    Lifecycle                                       X                     X               X               X               X                               X               X
    Use of Site Coordinators as GTMs
    Without Formal Delegation                                                                             X               X                               X               X

    No Quality Assurance Plans                      X                 X                   X               X               X               X               X               X

    No Evidence of Site Visits                                                            X               X               X               X               X               X

    Incomplete or Inaccessible COR Files            X                 X                   X               X               X               X               X               X
*
  Each contract is described in the Background section, “Contract Administration and Oversight.”
Source: OIG generated Table 1 based on analysis of a sample of eight AF contract files awarded from FY 2010
through FY 2012.

        In general, the deficiencies we identified occurred because AF had not developed and
implemented processes to ensure that Federal laws and Department guidance related to contract
oversight had been implemented. Without comprehensive oversight of AF contracts, the
Department may not always have reasonable assurance that Federal funds were spent in
accordance with contract terms, that the contract recipient performed program activities as
dictated in the contract, and that the program’s goals and objectives were achieved.

No Contracting Officer’s Representative Delegation for Contract Lifecycle14

        Seven (88 percent) of the eight contracts we reviewed experienced a period without a
COR delegation. Two (25 percent) of the eight contract files we reviewed contained an official
COR delegation memorandum as of August 1, 2013; however, the two designated CORs were no
longer executing COR responsibilities for those contracts. Rather, all of the contracts we
reviewed had a person acting in the capacity of a COR.15 In addition, seven (88 percent) of the
eight contracts we reviewed did not have a COR assigned for a period of months because of
personnel vacating their positions. For example, the COR for four (50 percent) of the eight
contracts we reviewed retired in 2013 and AF officials did not replace the vacant COR position
for 5 months. During these periods, there was no evidence of anyone else providing oversight
for these contracts. In some cases, CORs were never formally assigned or replaced. In addition,
three (38 percent) of the eight contracts did not have a COR with the appropriate Federal
14
     The contracts reviewed had lifecycles of 1 year to 3 years.
15
     This report refers to individuals serving in the COR capacity as a COR.

                                                                      8

                                                 UNCLASSIFIED
                                             UNCLASSIFIED

Acquisition Certification for Contracting Officer’s Representatives (FAC-COR)16 prior to
assuming their respective positions.17

        The DOSAR18 states that COs may designate technically qualified personnel as their
authorized representatives to assist in the administration of contracts. The FAH19 emphasizes
that the COR serves as the “eyes and ears” of the CO. As a practical matter, the CO rarely has
expertise in all the areas necessary to ensure successful contract completion. Therefore, the CO
must rely on the COR to assist with contract development and administration. It is the COR’s
responsibility to ensure, through liaison with the contractor, that the contractor accomplishes the
technical and financial aspects of the contract.

       The DOSAR states that a CO must appoint a COR using Form DS 1924, Certificate of
Appointment. The DOSAR further states that the CO shall prepare an accompanying delegation
memorandum to outline the scope of the COR’s authority, including duties, responsibilities, and
prohibitions. By signing their delegation memoranda, CORs acknowledge their roles and
responsibilities and allow COs to hold delegated CORs accountable for performing those duties.
As of January 1, 2012, OMB required COR candidates to complete mandatory training
requirements to obtain FAC-COR certifications, which the Department implemented through
Procurement Information Bulletin 2012-15.20 The basic requirements are summarized, as shown
in Table 2. The complete FAC-COR Certification Table may be found in Reference
Document II of Procurement Information Bulletin 2012-15.




16
   The Office of Federal Procurement Policy established guidance requiring CORs and GTMs to meet standardized
training and experience requirements. The FAC-COR is composed of three levels, Levels I, II, and III, which
represent tiers of training hours and experience.
17
   The OIG reviewed FAC-COR certifications for current CORs.
18
   DOSAR 642.270(a), “Contracting Officer’s Representative (COR).”
19
   14 FAH-2 H-111, “Purpose.”
20
   Procurement Information Bulletin Number 2012-15, “The Revised Federal Acquisition Certification Program for
Contracting Officer Representatives (CORs) and Government Technical Monitors (GTMs) (FAC-COR),” effective
August 8, 2012.

                                                       9

                                             UNCLASSIFIED
                                             UNCLASSIFIED


Table 2. FAC-COR Certification Requirements and Appropriate Use
 Certification Level          Training Requirement                 Appropriate Use
 Level 1             8 hours / 6 months of U.S. Government  Low-risk contract vehicles
                     experience                             below the simplified
                                                            acquisition thresholda
 Level 2             40 hours / 12 months of COR experience Moderate-to-high complexity
                                                            contractsb
 Level 3             60 hours / 24 months of COR experience Major investments as defined
                                                            by OMB Circular A-11c
                                                            certification
a
  As defined by the FAR, the simplified acquisition threshold is $150,000.
b
  OMB Memorandum, Revisions to the Federal Acquisition Certification for Contracting Officer’s Representatives
(FAC-COR), September 6, 2011, provides the appropriate use for Level II and Level III COR certification.
c
  OMB Circular No. A-11, Preparation, Submission, and Execution of the Budget, July 2013.
Source: OMB Memorandum, Revisions to the Federal Acquisition Certification for Contracting Officer’s
Representatives (FAC-COR), Sept. 6, 2011, and Procurement Information Bulletin 2012-15, The Revised Federal
Acquisition Certification Program for Contracting Officer Representatives (CORs) and Government Technical
Monitors (GTMs) (FAC-COR), Aug. 8, 2012.

         The Department did not consistently designate CORs for AF contracts because AF did
not have procedures or a current roster of certified CORs in place by which to nominate eligible
candidates to the CO for official COR designation. According to A/OPE’s FAC-COR
certification list as of November 1, 2013, AF had 32 certified Level I CORs, 64 Level II CORs,
and two Level III CORs. However, OIG determined that the list was inaccurate. Specifically,
the list included CORs who no longer worked for AF and some CORs whose certifications had
expired. Because the list of FAC-COR certified employees was inaccurate, AF could not ensure
that designated CORs were currently and/or properly certified. For example, because AF did not
have a sufficient number of Level II or Level III FAC-COR certified CORs, it selected a Level I
COR to administer and oversee a contract requiring a Level II certification. Since that individual
was not qualified to execute the duties required of a Level II COR, the CO could not delegate
COR authority to this person. In addition, AF did not develop contingency planning for
anticipated staff turnover.

        Establishing procedures and contingency plans to ensure that CORs are properly
certified, nominated, and designated would minimize the risk that contract oversight is
overlooked and ensure that designated CORs are fully aware of their roles and responsibilities in
conducting adequate oversight of contracts. In addition, without formally designating a COR,
the CO cannot hold the COR accountable for performing oversight duties. Ultimately, AF
jeopardized the success of contracts because inappropriately trained and inexperienced personnel
oversaw the contracts. Training and developing a greater number of CORs could mitigate such
problems and would promote greater flexibility in AF’s assignment of contracts to CORs.

        Recommendation 1. OIG recommends that the Bureau of African Affairs develop and
        implement procedures to ensure that it complies with the Office of the Procurement
        Executive’s guidance to nominate eligible Federal Acquisition Certification for
        Contracting Officer’s Representative candidates to the contracting officer (CO) for

                                                      10

                                             UNCLASSIFIED
                                UNCLASSIFIED

official designation as a contracting officer’s representative (COR) and ensure that other
COR candidates do not fulfill this role without the CO’s concurrence.

Management Response: AF concurred with the recommendation, stating that it will
work with the responsible CO to establish additional internal procedures ensuring that an
adequate level of contract administration and oversight is provided and complies with
A/OPE guidance. In addition, AF will nominate CORs for each of its contracts.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation demonstrating that AF has
established procedures to ensure adequate administration and oversight of its contracts,
including the nomination of eligible FAC-COR candidates to the CO.

Recommendation 2. OIG recommends that the Bureau of African Affairs (AF) develop
and implement a process to review the Office of the Procurement Executive’s Federal
Acquisition Certification for Contracting Officer’s Representatives list on, at a minimum,
a bi-annual basis, reconcile the list against contracting officer’s representatives who are
currently employed by AF, and request that the Office of the Procurement Executive
correct any discrepancies identified.

Management Response: AF concurred with the recommendation, stating that it will
develop and implement a process to verify, at least semiannually, the accuracy of
A/OPE’s FAC-COR list for each of AF’s active contracts and task orders. AF further
stated that it will work with A/OPE to correct any noted discrepancies.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation demonstrating that AF has
developed and implemented a process to review the accuracy of A/OPE’s FAC-COR list
on a biannual basis. In addition, AF’s documented process should specify the actions it
will take to correct noted deficiencies within A/OPE’s FAC-COR list.

Recommendation 3. OIG recommends that the Bureau of African Affairs develop and
implement a process to match the reconciled Office of the Procurement Executive’s
Federal Acquisition Certification for Contracting Officer’s Representatives list against
planned procurements during the upcoming year and build or maintain a roster of
certified contracting officer’s representatives to ensure that contracts have continual
oversight throughout the lifecycle of the contract.

Management Response: AF concurred with the recommendation, stating that it will
formalize its process to reconcile A/OPE’s FAC-COR list against planned procurements
during the upcoming year to ensure continual oversight throughout the lifecycle of each
AF contract and task order.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation demonstrating that AF has

                                        11

                                UNCLASSIFIED
                                       UNCLASSIFIED

       formalized its process for matching the reconciled FAC-COR list against planned
       procurements to ensure continual oversight throughout the lifecycle of each AF contract
       and task order.

       Recommendation 4. OIG recommends that the Bureau of African Affairs develop and
       implement contingency plans that eliminate lapses in oversight by qualified and trained
       contracting officer’s representatives throughout the lifecycle of all contracts.

       Management Response: AF concurred with the recommendation, stating that it will
       coordinate with A/LM/AQM to establish procedures and contingency plans that eliminate
       lapses in oversight by qualified and trained CORs throughout the lifecycle of all
       contracts.

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation demonstrating that AF, in
       coordination with A/LM/AQM, has established procedures and contingency plans that
       eliminate lapses in oversight by qualified and trained CORs throughout the lifecycle of
       all AF contracts.

Use of Site Coordinators Circumvents GTM Certification Requirements

         Four (50 percent) of the eight contracts we reviewed used “site coordinators” without
formal delegation rather than GTMs to assist with oversight of contracts on site. None of the site
coordinators had the combination of sufficient training or experience to perform GTM-like
responsibilities, and none had FAC-COR Level II or Level III certifications. For example, the
CO responsible for the two contracts we reviewed in Mauritania did not officially delegate any
GTMs. Because of the high-risk nature of these cost-reimbursable contracts, only individuals
with a Level II or Level III FAC-COR certification should have been delegated contract
administration and oversight responsibilities. Despite the requirement, a
non-FAC-COR-certified individual served in the site coordinator capacity. According to the site
coordinator, she did not have any prior training on contracts or contract oversight. In addition,
the site coordinator stated that the COR did not provide her with a copy of the contract, the
contract modifications, or any other relevant information for 4 months. Alternatively, the site
coordinator had to rely on the contractor to provide a copy of these and other pertinent
documents. Further, the site coordinator emphasized that since she had not taken any training,
she did not fully understand her role and responsibilities, and was not aware of how to oversee
the contractor’s performance.

        According to AF officials, a site coordinator can be either a U.S. Government employee
or a contractor, and the difference between a site coordinator and a GTM is that site coordinators
do not accept goods or services or approve invoices whereas GTMs do. Instead, the site
coordinator makes recommendations to the COR, who makes the final determinations about
receiving or rejecting goods and services and approving invoices. However, A/OPE officials
stated that the Department does not recognize the term “site coordinator” and therefore had no
policies or guidance to describe the site coordinators roles, responsibilities, training and

                                                12

                                       UNCLASSIFIED
                                             UNCLASSIFIED

certification requirements, or limitations. Because the Department does not recognize the term
“site coordinator,” AF’s use of site coordinators, rather than GTMs, allowed AF to circumvent
FAC-COR certification requirements.

        Federal regulations and Department policies establish minimum training and certification
requirements for GTMs. GTMs are required to have the same training and certification level as
CORs (details on COR training and certification requirements are in Table 2).21 In addition to
these requirements, COs officially designate GTMs via a delegation letter. Each delegation letter
outlines the GTM’s roles, responsibilities, and limitations for the contracts under their purview.
Prior to this delegation, the CO verifies that the GTM nominee meets the minimum training
requirements and maintains an adequate and current certification.

         AF officials stated that they used site coordinators because many of the Department’s
African posts suffered from manpower shortages, and frequent turnovers often resulted in
oversight vacancies that it filled with inexperienced and non-FAC-COR-certified individuals.
AF officials also stated that they had used site coordinators because of the site coordinator’s
ability to travel to locations where Government personnel could not travel. Despite the official’s
statement, OIG found that site coordinators were used in Mauritania and Liberia, which are
countries where Government employees are authorized to travel.

       The use of site coordinators in lieu of GTMs leaves the Department vulnerable to contract
mismanagement because site coordinators are not held to any certification standards and
contractors who are assigned as site coordinators may perform inherently governmental
functions.22 AF should follow A/OPE policies and procedures to ensure that on-site personnel
have the required training and experience to identify fraud, waste, and abuse and properly
oversee assigned contracts.

        Recommendation 5. OIG recommends that the Bureau of African Affairs discontinue
        the use of site coordinators in locations that allow Government personnel to work within
        that country and develop and implement processes to ensure that contracting officer’s
        representatives and government technical monitors with the appropriate levels of Federal
        Acquisition Certification for Contracting Officer’s Representatives are officially
        delegated to conduct oversight of their assigned contracts.

        Management Response: AF provided pending concurrence. Specifically, AF stated
        that it will adjust its use of site coordinators based upon the results of A/OPE’s review
        and clarification of site coordinator responsibilities (per Recommendation 6). AF further
        stated that it will reinforce measures to ensure that site coordinators do not perform
        inherently governmental duties and plans to evaluate the program load and geographic
        positioning of its oversight personnel.


21
  DOSAR 642.271, Government Technical Monitor (GTM).
22
  In the report Audit of Department of State Selection and Positioning of Contracting Officer’s Representatives,
(AUD-CG-14-07, Jan. 2014), OIG found that third-party contractors were used as “site coordinators” and performed
inherently governmental functions.

                                                      13

                                             UNCLASSIFIED
                                              UNCLASSIFIED

        OIG Reply: OIG considers the recommendation unresolved because AF plans to
        continue using site coordinators until A/OPE issues guidance on the subject, which does
        not meet the intent of this recommendation. Specifically, employing site coordinators in
        lieu of certified CORs and GTMs leaves the Department vulnerable to contract
        mismanagement and circumvents FAC-COR requirements. This recommendation can be
        resolved and closed when OIG reviews and accepts documentation demonstrating that
        AF has discontinued its use of site coordinators and has developed and implemented
        processes to ensure that certified CORs and GTMs are officially delegated to conduct
        oversight of assigned contracts.

        Recommendation 6. OIG recommends that the Bureau of Administration, Office of the
        Procurement Executive, issue guidance on whether the use of site coordinators by the
        Bureau of African Affairs meets Federal regulations and Department of State guidance
        for contract administration and oversight.

        Management Response: A/OPE concurred with the recommendation, stating that it will
        issue guidance on whether the use of site coordinators by AF meets Federal regulations
        and Department guidance for contract administration and oversight.

        OIG Reply: OIG considers the recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation demonstrating that A/OPE has
        issued guidance on whether the use of site coordinators by AF meets Federal regulations
        and Department guidance for contract administration and oversight.

No Quality Assurance Plans

        AF did not develop any quality assurance plans to monitor the eight contracts that we
reviewed. In addition, there was limited evidence in the COR files for the eight contracts we
reviewed to demonstrate a consistent level of oversight within the same contract when more than
one COR was assigned during the contract’s lifecycle. Although the CORs we interviewed
stated that their oversight included conducting weekly situation reports, or “sitreps,”23 with their
respective contractors, these interactions were not documented in the COR files.

        According to the FAR,24 quality assurance surveillance plans should be prepared in
conjunction with the preparation of the statement of work. The plan should specify all the work
requiring surveillance and the method of surveillance. The FAR also states that each contract
shall designate the place or places where the Government reserves the right to perform quality
assurance. Typically, Government personnel perform quality assurance at the source or at the
destination. In addition, the FAH25 states that if the contract contains a quality assurance plan,
the COR must follow the terms established in the plan to measure contractor performance.
Specifically, the FAH states:


23
   Sitreps are weekly meetings held by a COR with each contractor providing a status update.
24
   FAR 46.4, “Government Contract Quality Assurance.”
25
   14 FAH-2 H-523.2(d), “Inspection.”

                                                        14

                                              UNCLASSIFIED
                                       UNCLASSIFIED

       The Bureau [requirements office] that develops requirements for the contract is
       responsible for developing specifications for inspection, testing, and other quality
       measures to be included in solicitations and contracts. When administering the
       contract, the COR is responsible for developing quality assurance procedures,
       verifying whether the supplies or services conform to contract quality
       requirements, and maintaining quality assurance records. In some cases, the
       contract will contain a “quality assurance plan” and the COR will use the
       procedures in this plan to evaluate the quality of services or deliverables provided.

        AF officials did not explain why they had not developed quality assurance plans for each
of the contracts in our review. However, AF officials stated that they did not have a template for
developing a quality assurance plan.

         Quality assurance plans provide consistent oversight expectations of key personnel
involved and ensure that oversight personnel consistently follow the terms established in the plan
to measure contractor performance. Had AF developed and implemented quality assurance
plans, oversight personnel would know their roles and ensure that Government personnel oversee
critical aspects of the contract. Moreover, quality assurance plans would ease the transition in
cases of turnover of oversight personnel. The plans would also provide an accountability
measure for program managers and COs to ensure that oversight personnel are conducting
oversight in a manner commensurate with the contract’s risk and Government’s expectations.

       Recommendation 7. OIG recommends that the Bureau of African Affairs develop a
       quality assurance plan template that can be tailored for the unique needs of each contract
       and develop and implement a policy to ensure that contracting officer’s representatives
       use these plans to perform oversight of contracts.

       Management Response: AF concurred with the recommendation, stating that it will
       coordinate with A/LM/AQM to develop a quality assurance template for contract
       oversight. In addition, AF stated that it had begun incorporating standard project
       monitoring and control language into all relevant sections of a project scope of work in
       2013. Further, when appropriate, AF stated that it will work with the CO to require
       contractors to deliver a quality assurance surveillance plan, which will be used to help
       develop the COR’s quality assurance plan.

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation demonstrating that AF coordinated
       with A/LM/AQM to develop a quality assurance plan template for contract oversight and
       implemented a policy to instruct CORs to use the template when appropriate.

Conduct and Document Site Visits

        OIG found that CORs did not perform and document site visits for six (75 percent) of
eight contracts we reviewed. In the two instances in which site visits had been conducted, the
COR photographed the site. However, he did not provide a narrative to interpret the photographs

                                                15

                                       UNCLASSIFIED
                                                UNCLASSIFIED

or document the results of the site visit and he did not conduct appropriate oversight during the
visit. A site visit may be indispensable in checking contractor performance. A site visit may
also be necessary to check actual against reported performance, inspect facilities and working
conditions, and verify that personnel charged to a cost-reimbursable contract are actually
performing work under the contract. According to the FAH,26 the best method for monitoring
the contractor’s work is through actual inspection. The inspection clause in U.S. Government
contracts gives the U.S. Government’s authorized representatives the right to inspect and test
what is being generated under the contract at all stages of performance and wherever the work is
being conducted. The FAH also states that site visits should be conducted jointly by the CO and
the COR; however, as a practical matter, site visits are often delegated to the COR as noted in
14 FAH-2 H-522.3.27 Each COR file must contain documentation of on-site visit results.
The COR must provide the CO with copies of all materials that he or she authors, such as site
visit reports.28

        OIG found that CORs did not perform and document site visits because AF did not have
a written policy requiring CORs to conduct site visits for each contract recipient. Similarly, AF
did not have a process in place to ensure that CORs documented their site visits in accordance
with the Department’s FAH. In addition, CORs ignored their property administration
responsibilities to ensure that Government-furnished equipment was used in accordance with the
purpose of the contract.

        Without performing and documenting site visits, CORs were not performing an integral
part of oversight and did not have reasonable assurance that contracts were performed in
accordance with the proposed budget and program goals. In addition, CORs did not hold
contractors accountable for performance in accordance with contract terms and conditions.
For example, a COR conducted a site visit to inspect and accept a latrine after it was built on a
forward operating base in Sierra Leone.29 The contract required a latrine to be built at the lowest
point of a forward operating base; instead, the contractor built the latrine at an elevated point on
the base. The latrine was useless because water is gravity fed on this base and the water storage
tanks were positioned below the latrine. The contractor installed a water pump to push water up
the mountain. However, the Sierra Leonean soldiers did not know how to operate the system.
Despite the contractor’s non-conformance with contract requirements, the COR accepted the
latrine and paid the contractor the full amount of $162,000 for its services.

       For another contract30 in Sierra Leone, OIG determined that AF had accepted the
purchase of equipment that did not meet contractual requirements. Specifically, the Government
accepted and paid for a generator and two fuel tanks that did not meet the requirements specified

26
   14 FAH-2 H-522.1(a), “Inspecting the Work.”
27
   14 FAH-2 H-522.1(b), “Inspecting the Work” also states that the COR may perform inspections by using several
techniques and procedures, including spot checks, scheduled inspections of specific functions, random sampling of
routine functions, use of contract monitoring and user reports, and periodic review of the contractor’s quality control
program and reports.
28
   14 FAH-2 H-517(a-b), “Standard Contracting Officer’s Representative (COR) Working File.”
29
   Contract No. SAQMMA12F0313.
30
   Contract No. SAQMMA12F4836.

                                                          16

                                                UNCLASSIFIED
                                        UNCLASSIFIED

in the contract, all of which totaled $83,295.20. Additionally, for this same contract, Embassy
Freetown staff used Government-furnished equipment costing $1.5 million for purposes other
than for which the equipment was intended. For example, the Government-furnished equipment
was used to service Embassy personnel’s personal vehicles as well as to perform maintenance on
Embassy equipment. The FAR strictly prohibits the use of Government-furnished equipment for
anything other than its intended use. Site visits by CORs in these cases may have identified
these issues and allowed the Department to remedy these situations accordingly.

       Recommendation 8. OIG recommends that the Bureau of African Affairs develop
       guidance that requires contracting officer’s representatives to perform site visits for each
       contract recipient at least once during the life of the contract or annually for those
       recipients identified as high-risk.

       Management Response: AF concurred with the recommendation, stating that it will
       formalize its existing guidance requiring CORs to perform at least one site visit per year
       for each of its large and complex contracts.

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation demonstrating that AF developed
       guidance requiring its CORs to perform at least one site visit per year for each of their
       high-risk contract recipients, which includes large and complex contracts.

       Recommendation 9. OIG recommends that the Bureau of African Affairs follow the
       Department’s Foreign Affairs Handbook guidance to ensure that each contracting
       officer’s representative documents the findings and results of their site visits and provides
       this information to the contracting officer.

       Management Response: AF concurred with the recommendation, stating that it will
       establish procedures to ensure that CORs document certain elements of each site visit on
       a detailed trip report that they will centrally file within 30 days after trip completion.
       Additionally, AF stated that it will coordinate with A/LM/AQM and request that the CO
       review each COR file at least semiannually.

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation demonstrating that AF established
       written procedures on documenting and maintaining trip reports for each COR site visit,
       to include providing trip reports to the applicable CO.

       Recommendation 10. OIG recommends that the Bureau of African Affairs issue a
       memorandum to Embassy Freetown prohibiting the inappropriate use of Government
       furnished equipment and require contracting officer’s representatives to monitor the
       appropriate use of Government-furnished equipment.

       Management Response: AF concurred with the recommendation, stating that it will
       request the CO for the contract in question to render a decision on the appropriate use of

                                                17

                                        UNCLASSIFIED
                                             UNCLASSIFIED

        Government-furnished equipment. In addition, AF provided details on prior discussions
        it had with embassy officials about the appropriate use of Government furnished
        equipment.

        OIG Reply: OIG considers the recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation demonstrating that the CO
        rendered a formal decision about the appropriate use of Government-furnished equipment
        for Contract No. SAQMMA12F4836.

Incomplete or Inaccessible Contracting Officer’s Representative Files

         As previously mentioned, none of the eight COR files OIG reviewed included all of the
documentation required by the FAR and the FAH. AF’s COR files generally did not contain
sufficient documentation to demonstrate that CORs performed adequate contract oversight.
Some examples of missing documentation included the following: COR and GTM delegation
letters, copies of all contractor correspondence, site visit reports, assessments of contractor
performance, copies of all invoices, and a payment register indicating the balance of funds
remaining. In addition, AF’s COR files were not readily available upon OIG request.
For example, AF could not locate a COR file for Contract No. SAQMMA12F0545 for advisory
services provided to the Government of Liberia.

         The head of each office performing contracting or contract administration must establish
files containing the records of all contractual actions. According to the FAR,31 the
documentation in these files shall be sufficient to constitute a complete history of the transaction
for the purpose of providing a complete background as a basis for informed decisions at each
step in the acquisition process. Contract files should also provide support for actions taken,
provide information for reviews and investigations, and furnish essential facts in the event of
litigation or congressional inquiries. In addition, the FAR32 states that each COR shall maintain
a file for each assigned contract. The file must include, at a minimum, a copy of the CO’s
designation and other documents describing the COR’s duties and responsibilities, a copy of the
contract administration functions delegated to a contract administration office which may not be
delegated to the COR, and documentation of COR actions taken in accordance with the
delegation of authority.

        The FAH33 requires each COR to establish and maintain a file for each contract under his
or her administration. The file’s purpose is twofold: to provide easy access to technical contract
information and work progress; and to ease the transition to a new COR if more than one is
appointed during the life of a contract. The COR file must include copies of the following items:

           Complete procurement request package.
           Solicitation and any amendments.

31
   FAR 4.801(b), “Government Contract Files.”
32
   FAR 1.604, “Contracting Officer’s Representative (COR).”
33
   14 FAH-2 H-517.

                                                      18

                                             UNCLASSIFIED
                                                 UNCLASSIFIED


               Technical and cost proposals submitted by the winning contractor.
               Copy of the contractor’s approved work plan if required.
               Copy of the contract and all modifications.
               Copies of all progress reports submitted by the contractor.
               Copies of all correspondence and synopses of telephone calls to and from the
                contractor.
               Interim and final technical reports or other products.
               Documentation of acceptability/unacceptability of deliverables.
               Documentation of on-site visit results.
               Copies of any memoranda regarding periodic performance affecting payment.
               Copies of all invoices/vouchers and a payment register indicating the balance of funds
                remaining.
               COR’s final assessment of contractor performance.
               Any other pertinent materials or information.

        In addition, the requirements office,34 in this case AF, must develop a procedure for
retention of the COR file.

         The incompleteness and inaccessibility of COR files occurred because CORs did not
comply with standards set forth in the FAR and the FAH and no one within AF was monitoring
the files to ensure that they were complete. In addition, AF officials explained that the missing
documentation from COR files could be located in other areas, such as the COR’s email folders
and desktop computer files. However, this was not in accordance with Department guidance, as
files should have been centrally maintained but were not because AF did not have procedures for
the retention or retirement of COR files as required by the FAH.

       Maintaining incomplete and inaccessible files does not provide easy access to technical
contract information and does not ease the transition to a new COR. Without centrally
maintaining documentation, incoming CORs who assume oversight of a contract immediately
have their ability to effectively oversee the contractor’s performance inhibited. And, when
documentation is misfiled or is incomplete, the Government may not have documentation to
defend its position of contractor non-conformance, potentially resulting in paying for goods and
services that do not meet requirements.

           Recommendation 11. OIG recommends that the Bureau of African Affairs establish and
           implement policies and procedures to ensure the completeness, accessibility, retention,
           and review of contracting officer’s representative files in accordance with the Federal
           Acquisition Regulation and the Foreign Affairs Handbook.

           Management Response: AF concurred with the recommendation, stating that it will
           establish and implement policies and procedures to retain complete, accessible COR files



34
     The requirements office is the bureau that developed a statement of need.

                                                           19

                                                 UNCLASSIFIED
                                       UNCLASSIFIED

       in a central location. In addition, AF stated that it will perform a semiannual review of
       COR files to make certain they are properly maintained.

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation demonstrating that AF established
       and implemented policies and procedures on the retention, completeness, accessibility,
       and semiannual review of COR files.

Finding B. Improvements Needed for Comprehensive Administration and
Oversight of Bureau of African Affairs Grants
        All eight of the AF grants we reviewed were inadequately administered and monitored by
oversight personnel. Specifically, OIG identified eight areas where AF did not take the
following actions: (1) ensure that a certified GOR was assigned throughout the lifecycle of all
grant awards, (2) notify the GO of recipients’ non-conformance with the terms and conditions or
deviations from the grant award that required an amendment, (3) include language for grantees to
report by performance indicators, (4) develop grant monitoring plans, (5) require the timely
submission of all required reports from the recipient prior to making payments, (6) adequately
document the reviews of quarterly performance and financial reports, (7) perform site visits to
validate recipient performance, and (8) identify high-risk grant recipients. The identified
deficiencies as they correspond to the eight grants reviewed are shown in Table 3.




                                               20

                                       UNCLASSIFIED
                                               UNCLASSIFIED


Table 3. Grant Deficiencies Identified and the Eight Grants Reviewed
                                                                                                                  Grants Revieweda




                                                                                                                                           S-LMAQM-12-GR-1217
                                                   S-LMAQM-12-CA-1100


                                                                             S-LMAQM-11-GR-005


                                                                                                  S-LMAQM-11-GR-071


                                                                                                                       S-LMAQM-11-GR-047




                                                                                                                                                                S-LMAQM-10-GR-005


                                                                                                                                                                                     S-LMAQM-10-GR-019


                                                                                                                                                                                                          S-LMAQM-11-CA-084
         Identified Deficiencies

No GOR Delegation for Grant Lifecycle                                                                                 X                    X                    X                   X

Lack of Amendments for Grant Awards                                                                                                        X                    X
Grantees Not Reporting by Performance
Indicators                                        X                      X                       X                    X                    X                    X                   X                    X

No Monitoring Plan (Grant)                        X                      X                       X                    X                    X                    X                   X                    X
Untimely Performance and Financial
Reportsb                                          X                      X                       X                    X                    X                    X                   X                    X
No Reviews of Performance and
Financial Reportsb                                X                      X                       X                    X                    X                    X                   X                    X

No Evidence of Site Visits                        X                      X                       X                    X                    X                    X                   X                    X
Insufficient Identification of High-Risk
Recipientsc                                      n/a                    n/a                      n/a                  n/a                  X                    X                   n/a                  n/a
a
  Each grant is described in the Background section, “Grants Administration and Oversight.”
b
  Grant Number S-LMAQM-11-GR-005 is a property grant and therefore does not require performance and financial
reports. Instead, the reporting requirement is an annual inventory report, which was not supplied by the grant
recipient.
c
  Six (75 percent) of the eight grants we reviewed did not meet the requirement to be classified as a high-risk grant
recipient. Source: OIG generated Table 3 based on analysis of a sample of eight AF grant files awarded from FY
2010 through 2012.

        This lapse in the administration and the monitoring of the grants by AF oversight
personnel occurred because relevant Department policies and procedures were not consistently
implemented by GORs. Further, some GORs considered their oversight responsibilities
secondary to other duties they were required to perform, and AF personnel also stated that GOR
duties were often not a priority of AF management. As a result of the deficiencies identified,
AF’s grants were not always efficiently and effectively administered to ensure compliance with
the terms of the grant agreement and to ensure that the goals and objectives of each grant award
were achieved. Without comprehensive oversight of AF grants and a management focus on its
oversight responsibilities, AF could not have reasonable assurance that Federal funds were spent


                                                                        21

                                               UNCLASSIFIED
                                            UNCLASSIFIED

in accordance with the grant award; that the grant recipient performed program activities as
dictated in the grant award; and that the program’s indicators, goals, and objectives were
achieved.

No Grants Officer Representative Delegation for Grant Lifecycle

        For four (50 percent) of the eight grant files we reviewed, a GOR was not assigned for
periods of time because personnel had vacated their positions. Five (63 percent) of the eight
grant files we reviewed included an original GOR delegation memorandum. However, one of
the three individuals appropriately delegated GOR authority had vacated his position and was not
immediately replaced. During this period, there was no evidence of anyone performing
oversight of this grant.

        OIG also found that GORs on four (50 percent) of the eight grants did not fully
understand their roles and responsibilities or understand how to perform the functions of a GOR,
and two GORs considered their roles to be secondary to their other job duties. For example, one
individual working as a GOR in Mauritania was not formally delegated GOR authority by the
GO. In addition, he stated that his supervisor’s priorities did not include his GOR duties and that
he therefore he did not make his GOR duties a priority. This individual did not have a
background in grants and did not take grant training, and he stated that he did not know how to
administer and oversee the grant to which he was assigned. A similar statement was made by
another AF GOR, and A/LM/AQM personnel indicated that many GORs were inexperienced and
lacked the training needed to adequately administer and oversee grants.

        The Department’s GPD 1635 states that it is mandatory for the GO to designate, in
writing, a GOR to assist in the post-award administration of every award exceeding $100,000,
whether it is issued domestically or overseas.36 The GPD further states that the GOR is
responsible for ensuring that the Department exercises prudent management and oversight of the
award through monitoring and evaluating the recipient’s performance and that the authorities
given to the GOR are not re-delegable other than as specified in the GO’s designation letter.
In addition, individuals who execute GOR duties are required to complete two classes to obtain
GOR certification and 16 hours of continuous learning every 3 years to maintain their GOR
certification.

       According to the Federal Assistance Policy Handbook, the bureau or post with
responsibility for a GOR who is departing because of transfer, reassignment, or absence for an
extended period or other reason must plan for effectively disseminating the workload.
Pre-departure planning activities must be made well in advance of the separating officer’s or
representative’s last day of duty. To assist senior officials with succession planning, the Federal


35
  GPD 16, rev. 3, “Designation of Grants Officer Representatives,” Jan. 1, 2013.
36
  All eight grants in our sample were more than $100,000; however, GOs were not required to delegate GORs on
Grant Nos. SLMAQM11GR005 and SLMAQM11GR019 because the grants were completed prior to
implementation of GPD 16, rev. 3. However, because AF had personnel “acting” in a GOR capacity on both of
these grants, we reviewed the grant files for appropriate delegations.

                                                      22

                                            UNCLASSIFIED
                                             UNCLASSIFIED

Assistance Policy Handbook suggests that bureaus and posts take inventory of the expiration
dates for pending program and financial reports and closeout.

        Inconsistencies in GOR delegations occurred because AF did not have procedures to
nominate, track, and maintain qualified individuals for GOR positions for AF-funded grants in
excess of $100,000. For example, AF did not maintain a list of certified GOR candidates that
also identified each individual’s areas of technical expertise, certification appointments, and
dates of continued training. In addition, while AF officials did not explain why, they stated that
they did not execute pre-departure planning activities in accordance with the Federal Assistance
Policy Handbook. Having procedures and pre-departure planning in place would have allowed
AF to nominate new candidates to the GO to serve as GORs to ensure a seamless transition for
the oversight of grants. The Department’s GPD 16 states, “[if] the GOR is replaced during the
period of the assistance award, the [Grants Officer] shall prepare a new designation
memorandum for the replacement GOR and ensure that the Federal assistance recipient receives
a copy as well.”

        To strengthen the management and oversight of assistance agreements, A/OPE annually
performs reviews of specific bureaus and posts.37 During these reviews, A/OPE personnel
review grant files to ensure the appropriate level of leadership and oversight. If appropriate,
A/OPE’s review team also conducts on-the-spot training of staff to empower the office reviewed
with the tools and knowledge it needs to improve processes. According to AF and A/OPE
officials, A/OPE has not performed a grants management review of AF. OIG believes it would
be useful for A/OPE to perform a review of AF based on the findings identified in this report.

        Having a designated GOR during the lifecycle of a grant is important to ensure that AF
has a certified and authorized representative to exercise effective management and oversight of
the award through monitoring and evaluating the recipient’s performance. In addition, formal
delegation of the GOR is important because the delegation letter outlines the GOR’s authorities,
responsibilities, and limitations. The delegation memorandum is required to be signed by the
GOR as acknowledgement of his or her roles and responsibilities and allows GOs to hold
delegated GORs accountable for performing those duties. Lapses in GOR delegation may result
in grants that are not properly administered or have proper oversight.

        Recommendation 12. OIG recommends that the Bureau of African Affairs develop and
        implement a process to ensure that certified and technically qualified candidates are
        nominated to the Grants Officer for formal designation as a Grants Officer Representative
        throughout the lifecycles of all grant awards.

        Management Response: AF concurred with the recommendation, stating that it will
        build upon its existing procedures and processes to ensure that it nominates certified and
        technically qualified GOR candidates. Additionally, AF will assess its GOR needs for
        current and planned grants.

37
 The Bureau of Administration, Office of the Procurement Executive, Federal Assistance Division performs grant
management reviews under the authority of GPD 34, “Grants Management Reviews.”

                                                      23

                                             UNCLASSIFIED
                                 UNCLASSIFIED



OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation demonstrating that AF developed
and implemented a process to ensure the nomination of certified and technically qualified
candidates to the GO for formal designation as a GOR throughout the lifecycle of all
grant awards.

Recommendation 13. OIG recommends that the Bureau of African Affairs develop and
maintain a list of certified Grants Officer Representative (GOR) candidates that also
identifies each candidate’s areas of technical expertise, certification appointments, and
dates of continued training and that it reviews ongoing grants semiannually to ensure
active GORs are administering and overseeing its grants.

Management Response: AF concurred with the recommendation, stating that it will
work with A/OPE to determine whether the existing GOR database has the capability of
maintaining all of the recommended information for each GOR candidate. Additionally,
AF stated that it will review its list of active grants semiannually to ensure that the grants
have appropriate oversight and coverage.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation demonstrating that AF maintains a
list of certified GOR candidates that also identifies each candidate’s areas of technical
expertise, certification appointments, and dates of continued training. As recommended,
AF also needs to provide documentation demonstrating that it has implemented a
procedure to semiannually review the administration and oversight of each active grant.

Recommendation 14. OIG recommends that the Bureau of African Affairs maintain an
inventory of its grants and their implementation dates with corresponding Grants Officer
Representatives (GOR) and that it develop and implement pre-departure planning
activities for its GORs in accordance with the Federal Assistance Policy Handbook.

Management Response: AF concurred with the recommendation, stating that it will
work with A/OPE to use their existing Grants Solutions database to maintain an
inventory of its grants and their implementation dates along with the designated GORs
for each. Additionally, AF stated that it will implement procedures to ensure a smooth
transition of GOR duties for active grants.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation demonstrating that AF, in
coordination with A/OPE, uses the Grants Solutions database to maintain an inventory of
its grants and their implementation dates with corresponding GORs. In addition, AF
needs to provide documentation demonstrating that it has implemented procedures as part
of pre-departure planning activities to ensure a smooth transition of GOR duties for
active grants.



                                          24

                                 UNCLASSIFIED
                                                UNCLASSIFIED

         Recommendation 15. OIG recommends that the Bureau of Administration, Office of the
         Procurement Executive, conduct a management review of grants administered by the
         Bureau of African Affairs (AF) in accordance with Grants Policy Directive 34, “Grants
         Management Reviews,” and that it provide training as necessary to AF’s administrative
         and oversight personnel.

         Management Response: A/OPE concurred with the recommendation, stating that it will
         conduct a domestic grants management review of grants administered by AF by
         spring 2015, pending available resources. A/OPE stated that it will also consult with AF
         on the coordination and delivery of federal assistance training to AF administrative and
         oversight personnel in FY 2015.

         OIG Reply: OIG considers the recommendation resolved. This recommendation can be
         closed when OIG reviews and accepts documentation demonstrating that the A/OPE
         conducted a grants management review of grants administered by AF and that A/OPE
         coordinated with AF to ensure that its administrative and oversight personnel are
         adequately trained.

Changes to Grant Awards Require Amendments

        Two (25 percent) of the eight grants that OIG reviewed had not been amended to allow
for deviations from the Notice of Award. Specifically, AF’s GORs allowed a grant recipient to
perform a grant beyond the established period of performance38 and another grant recipient to
change key personnel39 without amending the grant agreement. In the first instance, the grant
agreement stated that the period of performance for the grant lasted until October 30, 2013.
However, because funds were still available, the GOR allowed the grantee to continue to perform
work through November 2013, after the period of performance had expired, which is outside of
the GOR’s authority to allow. The GOR stated that he allowed performance to continue without
an extension because funding on the grant was still available even though the period of
performance had expired.40

        In the second instance, the GOR did not appropriately monitor the grant award and
allowed the grantee to change key personnel after the award was made without informing the GO
to execute an amendment to the award, which is also outside the scope of a GOR’s authorities.
Specifically, for Grant No. S-LMAQM-12-GR-1217, key personnel identified in the scope of
work left the organization and were not replaced. OMB Circular No. A-110 and the
Department’s Standard Terms and Conditions for Assistance Awards41 require written prior
approval, by way of amendment from the Department’s GO, for changes in key personnel as
specified in the application or award document.

38
   Grant No. S-LMAQM-10-GR-005.
39
   Grant No. S-LMAQM-12-GR-1217.
40
   To receive a one-time extension, including extensions with no additional cost to the Government, the grantee is
required to submit its request in writing to the GO 10 days prior to the expiration date established in the original
award.
41
   Standard Terms and Conditions for Domestic Federal Assistance Awards, Oct. 1, 2009.

                                                          25

                                                UNCLASSIFIED
                                               UNCLASSIFIED



        To ensure compliance with the terms and conditions of grant awards, GORs must
understand their roles and responsibilities prescribed by Department directives and must be
familiar with aspects of the grants. However, in these two circumstances GORs did not execute
their roles and responsibilities in accordance with the Department’s GPD 28.42 According to
GPD 28, the GOR is to administer certain aspects of a specific assistance agreement from the
award through closeout. Some of the GOR’s duties include the following:

            Ensures compliance with all the terms and conditions of the award.
            Notifies the GO promptly of any developments that could have a significant impact
             on the recipient’s performance.
            Prepares internal documents to support amendments to the award for the GO’s
             evaluation.

        AF did not have sufficient guidance in place for GORs to ensure that work was
performed by grantees within the scope of the grant agreement and that required GORs to notify
the GO of any significant changes to the scope of work that might require a modification to the
grant agreement.

          GORs are the eyes and ears of the GO. As such, they are the Government’s technical
experts and are responsible for monitoring the grant recipients in accordance with Federal
regulations, Department policies, and grant terms and conditions. By allowing one grantee to
perform work after the period of performance had ended, the grantee was paid for incurred costs
related to the grant, which resulted in an unauthorized commitment.43 According to grant
terms,44 the grantee may only be reimbursed for allowable costs incurred during the funding
period. They are not entitled to consideration (money) unless and until the unauthorized
commitment is ratified.45 Payment is therefore substantially delayed or may not be forthcoming
at all if the action is not ratified. OIG brought this matter to the attention of the GO, who stated
that they would retroactively extended the grant by issuing an amendment, which therefore
eliminated the need for grant ratification. Nonetheless, the GOR, by acting outside of his
authorized responsibilities, did not allow for the GO to exercise prudent management over
foreign assistance funds.46

       In addition, as a result of the GOR’s lack of oversight of key personnel, the Department
may not have had assurance that the grant was appropriately staffed by knowledgeable or
experienced personnel capable of performing that role. It is imperative that GORs promptly

42
   GPD 28, rev. 1, “Roles and Responsibilities for the Award and Administration of Federal Assistance,” Sept. 2010.
43
   GPD 2, rev. 2, “Unauthorized Commitments,” states that an unauthorized commitment occurs when an employee
other than a GO gives direction or makes a commitment to a recipient that causes the recipient to incur costs
exceeding those obligated in the agreement.
44
   “The U.S. Department of State Standard Terms and Conditions for Domestic Federal Assistance Awards,”
Oct. 2009.
45
   Ratification is the act of approving an unauthorized commitment by an official who has the proper authority to do
so.
46
   According to GPD 28, the GO is responsible for exercising prudent management over assistance funds.

                                                        26

                                               UNCLASSIFIED
                                               UNCLASSIFIED

notify the GO of any deviations from the grant award, since without prompt notification, grants
oversight personnel cannot ensure that recipients of assistance awards will achieve a grant’s
goals and objectives.

         Recommendation 16. OIG recommends that the Bureau of African Affairs utilize
         Grants Policy Directive 28, “Roles and Responsibilities for the Award and
         Administration of Federal Assistance,” and the Standard Terms and Conditions for
         Domestic and Overseas Federal Assistance Awards to develop and implement standard
         operating procedures that document responsibilities of the Grants Officer Representative
         for monitoring the terms and conditions of all grant awards, including promptly notifying
         the Grants Officer (GO) of all changes that require the GO’s attention.

         Management Response: AF concurred with the recommendation, stating that it will use
         the Department’s GPDs to further develop and implement standard operating procedures
         and tailor AF’s standard operating procedures for monitoring each of its grants.

         OIG Reply: OIG considers the recommendation resolved. This recommendation can be
         closed when OIG reviews and accepts documentation demonstrating that AF developed
         and implemented standard operating procedures that document the GOR’s responsibility
         for monitoring grant awards and notifying the GO of all changes that require the GO’s
         attention.

Language Needed for Grantees to Report by Performance Indicator

        None of the eight grants OIG reviewed included well-defined and measurable
performance indicators47 to achieve each grant’s purpose. In addition, because indicators were
not included in the award, AF did not require grant recipients to report actual performance
against performance indicators in relation to the goals established in the required quarterly
performance reports.

        The Federal Assistance Policy Handbook states that the scope of work or award purpose
should align measurable targets and performance indicators with specific goals and objectives of
the award or the bureau’s mission. Further, the Notice of Award requires grantees to submit
quarterly financial and performance reports and typically includes the due dates for those reports.
However, the Notice of Award could be improved by including language that describes AF’s
expectations of required reports as part of the section labeled “Post/Program Specifics.”
OMB Circular No. A-11048 requires certain matters to be included when performance reports are
required, including the following:



47
   Performance indicators measure a particular characteristic or dimension of an intervention’s (management effort)
outputs or outcomes.
48
   OMB Circular No. A-110 sets forth standards for obtaining consistency and uniformity among Federal agencies in
the administration of grants to and agreements with institutions of higher education, hospitals, and other non-profit
organizations.

                                                         27

                                               UNCLASSIFIED
                                       UNCLASSIFIED

       1. A comparison of actual accomplishments with the goals and objectives
          established for the period…. Whenever appropriate and the output of
          programs can be readily quantified, such quantitative data should be related to
          cost data for computation of cost units.
       2. Reasons why established goals were not met, if appropriate.

        AF awards did not include defined and measurable performance indicators and AF GORs
did not require grantees to report against those indicators because AF did not have procedures to
ensure that these things occurred for each award. The GOR, as the technical AF representative
responsible for monitoring and evaluating the recipient’s performance, should have reviewed the
grant award documentation and determined whether performance indicators were identified,
were included in the award, and were measurable. If the performance indicators were missing or
inadequate, the GOR should have worked with the GO to establish appropriate performance
indicators prior to the award or should have ensured that the GO modified the award accordingly
to incorporate measurable performance indicators. In turn, the GOR should have required that
the grant recipients submitted quarterly performance reports that measured activities incurred in
comparison to the indicators established. However, because this action did not occur, AF’s
GORs were not in a position to effectively track the progress of their assigned grants.

        By not ensuring that its awards included pertinent performance indicators or requiring the
grant recipient’s performance report to measure its program’s status by those indicators, AF
oversight personnel were ill-positioned to determine whether grantees were able to meet their
goals and objectives. Grants awarded without performance indicators may have more difficulty
in complying with OMB Circular No. A-110 requirements because goals and objectives cannot
be measured for the performance period being reported against.

       Recommendation 17. OIG recommends that the Bureau of African Affairs develop and
       implement procedures to ensure that all future Notices of Award include appropriate
       performance indicators and require that grantees provide performance reports that
       measure program achievements in comparison to performance indicators and program
       objectives.

       Management Response: AF concurred with the recommendation, stating that it will
       develop and implement procedures to measure the recipient’s performance against the
       grant’s purpose. Specifically, AF stated that it will work with the GO to implement or
       change grant documents to include requirements that grantees deliver performance
       reports measuring achievements in comparison to identified performance indicators and
       program objectives.

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation demonstrating that AF has
       developed and implemented procedures to ensure that future grants include performance
       indicators and requirements for recipients to submit performance reports measuring
       achievements in comparison to identified performance indicators and program objectives.



                                               28

                                       UNCLASSIFIED
                                               UNCLASSIFIED


No Monitoring Plans

         OIG determined that GORs did not develop monitoring plans for any of the eight grants
we reviewed. The Department’s GPD 4249 states that it is the responsibility of the GOR, in
consultation with the GO, to develop a monitoring plan that is appropriate for the program.
The GPD further states that the monitoring plan should document the types of monitoring
activities to be performed, the frequency of these activities, and the individuals responsible for
each activity. In addition, GPD 42 provides multiple templates for monitoring plans, such as the
“Monitoring Plan Worksheet” and the “Sample Narrative Monitoring Plans,” both of which
include sections for documenting the goals and objectives of the award and the results of
recipient performance.

        Although not citing a specific reason as to why, AF officials stated that they had not
developed a monitoring plan template that fit the general needs of AF grants. Developing such a
template could provide consistency in oversight expectations among the grants AF funds, and
these plans could be further tailored to meet the specific needs of individual grants. In addition,
monitoring plans would aid GORs in times of transition because the new GOR would be aware
of what the oversight expectations were for the grant. For example, had a monitoring plan been
developed and implemented for Grant No. S-LMAQM-11-GR-047, the incoming GOR would
have had a baseline assessment of the grant’s goals and objectives and the expected project
outcomes. Moreover, a template would provide an accountability measure for program
managers and GOs to ensure that GORs are conducting oversight in a manner commensurate
with expectations.

           Recommendation 18. OIG recommends that the Bureau of African Affairs (AF)
           develop a monitoring plan template that is consistent with the requirements detailed in
           Grants Policy Directive 42, “Monitoring Assistance Awards,” and that it develop and
           implement a process to ensure that monitoring plans are utilized to meet the AF’s
           oversight needs for all future grant awards.

           Management Response: AF concurred with the recommendation, stating that it will
           develop procedures and a grants monitoring template to help GORs ensure that grants are
           meeting performance objectives. Additionally, AF stated that it will require that GORs
           work with the GO to develop specific grant monitoring plans tailored to meet individual
           grant performance goals.

           OIG Reply: OIG considers the recommendation resolved. This recommendation can be
           closed when OIG reviews and accepts documentation demonstrating that AF has
           developed a monitoring plan template and a requirement for the GORs to coordinate with
           the GO when tailoring the template for the unique needs of each grant.




49
     GPD 42, “Monitoring Assistance Awards,” Sept. 2, 2010.

                                                        29

                                               UNCLASSIFIED
                                          UNCLASSIFIED


Untimely Performance and Financial Reports

        OIG found that none of the eight grant recipients reviewed had submitted complete
quarterly performance and financial reports in a timely manner. For example, all eight of the
grants that we reviewed had quarterly reports that were submitted more than 30 days after the
end of the quarter or were not submitted at all. In fact, one recipient50 had never submitted a
quarterly report until the recipient was informed that OIG had selected the grant for review.

        For seven (88 percent) of the eight grants we reviewed, we did not find any
documentation demonstrating that the GORs had contacted the grant recipients regarding their
non-compliance with reporting requirements. In another instance, a grantee51 failed to submit
the required performance and financial reports but still received an advance of funds to execute
the grant and continued to receive payments from the Department.

        According to the terms and conditions for all of the grant awards we reviewed, grant
recipients are required to submit quarterly performance and financial reports no later than
30 days after the end of each calendar year quarter (March 31, June 30, September 30, and
December 31). In addition, annual performance reports and financial reports are due 90 calendar
days after the award period, and final performance and financial reports should also be submitted
within 90 days after the expiration date of the grant award. Regarding the delinquency of
reports, the FAH52 states:

        When a financial assistance recipient has been determined to be delinquent in
        filing reports, the program office shall send a letter reminding the recipient of
        delinquent reports. After 30 days, if the recipient has not responded, the bureau
        will send a second notice letter. If after an additional 30 days the recipient has not
        responded, the bureau will send a third and final notice letter. After the third
        notice has been sent, the bureau will suspend all payments until such time as the
        overdue reports are filed.

       The GORs did not notify grant recipients of their delinquency, which was not in
compliance with Department policy. When performance and financial reports are not timely, the
GOR cannot adequately monitor the grant recipient’s technical progress or compare it against
incurred costs to ensure that the grant’s terms and conditions are being met.

        Recommendation 19. OIG recommends that the Bureau of African Affairs (AF)
        develop and implement a process to ensure that, if grant recipients do not submit timely
        quarterly, annual, and final performance and financial reports, Grants Officer
        Representatives will implement remedies as required by the Foreign Affairs Handbook,
        the Federal Assistance Policy Handbook, and AF’s grant agreements.



50
   Grant No. S-LMAQM-12-GR-1217.
51
   Grant No. S-LMAQM-12-GR-1217.
52
   4 FAH-3 H-674, “Delinquent Reports.”

                                                 30

                                          UNCLASSIFIED
                                            UNCLASSIFIED

        Management Response: AF concurred with the recommendation, stating that it will
        develop procedures and continue to monitor its grant recipients and implement remedies
        as required by applicable policy and guidance when grant recipients do not file required
        performance and financial reports. Specifically, AF stated that it will follow-up with the
        grant recipient within 30 days of a report delinquency, again with a 60-day delinquency
        letter, and then suspend payments after sending the third and final notice letter at the
        90-day delinquency point.

        OIG Reply: OIG considers the recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation demonstrating that AF has
        developed and implemented procedures to remedy situations when grant recipients do not
        submit required performance and financial reports.

Document the Review of Performance and Financial Reports

        For all eight of the grants we reviewed, we found no documentation demonstrating that
GORs reviewed quarterly performance and financial reports. Because GORs did not always
review, analyze, and provide written assessments of grant recipients’ submitted performance
reports and financial reports, the GORs were often unaware of grantee noncompliance or
performance shortfalls, which we identified during our review. For example, two (25 percent) of
eight grant recipients procured items outside of grant terms and two (25 percent) recipients’
financial systems did not meet Federal standards. Similarly, seven (88 percent) of the eight53
grant recipients continued to receive reimbursements, even though their quarterly performance
and financial reports did not include all of the required information. For example, the recipient
of Grant No. S-LMAQM-11-GR-04754 did not submit performance reports that included a
comparison of actual accomplishments with the goals and objectives or an explanation for why
the goals were not met, as required by the FAH.55 Further, the grant recipient did not submit
quarterly financial reports that include details on the grant recipient’s expenditures and costs
incurred.

        According to GPD 16,56 the GOR assists the GO in ensuring that the Department
exercises prudent management and oversight of the award through the monitoring and the
evaluation of the recipient’s performance. GPD 16 also requires GORs to perform management
and oversight by verifying timely and adequate performance through the receipt, review,
analysis, and written assessment of a grant recipient’s performance and financial reports.
To demonstrate the review of performance and financial reports, GPD 42 provides a template
entitled “Discretionary Grants Monitoring Instrument.” This template includes the following
areas as suggestions for reviewing performance and financial reports for each grant:



53
   Grant No. S-LMAQM-GR-005 transferred property instead of providing financial reimbursements.
54
   Grant No. S-LMAQM-11-GR-047 was awarded to provide training, equipment, and technical assistance for three
vocational schools in Mauritania to train youth who are vulnerable to radicalization.
55
   4 FAH-3 H-672, “Program Monitoring.”
56
   GPD 16, rev. 3, Jan. 1, 2013.

                                                     31

                                            UNCLASSIFIED
                                       UNCLASSIFIED


      Project Status – A brief description of the project and the accomplishments of project
       goals to date.
      Problems/Successes – Description of any problems or successes that have been
       encountered or could be shared as “best practices.”
      Goals – An update on the status of the completion of project goals and, if not yet
       accomplished, a plan for accomplishing the goals.
      Participants and Expenditures – A table for recording a participants planned and actual
       expenditures to date.

        GORs did not execute due diligence in their management and oversight responsibilities
because AF officials did not enforce the associated Department policies. In addition, as
previously mentioned, OIG found that many of the GORs did not fully understand their roles and
responsibilities or understand how to perform the functions of a GOR, and some considered their
GOR roles as secondary to their other job duties. OIG believes that these conditions will
continue to exist until AF officials ensure that the individuals serving in the GOR capacity are
trained, delegated GOR authority by a GO, and held accountable for performing and
documenting their reviews of grant recipients’ performance and financial reports.

        Had GORs ensured that grant recipients submitted the required performance and financial
reports and thoroughly reviewed these reports, they would have been better positioned to identify
problems and inform the GO to take corrective actions. Further, the completeness and accuracy
of these reports is important because they can serve as a valuable resource to incoming GORs
during periods of transition. Without appropriate review, analysis, and written evaluation of
grantees’ performance and financial reports, AF had limited assurance that expended funds
achieved the intended goals. It is imperative that GORs review performance and financial
reports and document their reviews to ensure that grantees are capable of meeting the grant terms
and conditions; are spending funds in accordance with the approved budget; and are making
progress in accomplishing award tasks including progress on meeting goals, objectives, and
indicators.

       Recommendation 20. OIG recommends that the Bureau of African Affairs develop and
       implement a process to ensure that the requirements in Grants Policy Directive 16,
       “Designation of Grants Officer Representative,” for the Grants Officer Representatives to
       review, analyze, and provide a written assessment of the required recipient Program
       Progress and Financial Status Reports are implemented.

       Management Response: AF concurred with the recommendation, stating that it will
       develop and formalize its process to review, analyze, and provide written assessments of
       grantees’ Program Progress and Financial Status Reports.

       OIG Reply: OIG considers the recommendation resolved. This recommendation can be
       closed when OIG reviews and accepts documentation demonstrating that AF has
       developed and implemented a process that ensures GORs review, analyze, and provide a
       written assessment of the grant recipient’s Program Progress and Financial Status
       Reports.

                                               32

                                       UNCLASSIFIED
                                              UNCLASSIFIED



Conduct and Document Site Visits

       OIG found that GORs did not perform and document site visits for the eight grants we
reviewed. Site visits provide an opportunity to observe the implementation of the grant and
review the recipient’s accounting records to ensure that adequate documentation is being
maintained to support award expenditures. Site visits may also be performed in response to a
perceived problem or concern.

        According to GPD 16,57 GORs are responsible for maintaining contact with the award
recipient through site visits and other oversight activities. The policy also states that upon
completion of a site visit, the GOR should ensure that findings are submitted promptly to the GO
through a trip report. Reports might include, as appropriate, actual performance versus
scheduled performance, action needed to restore the proposed schedule, and costs incurred
versus projections. In addition, GPD 42 includes a detailed “Site Visit Worksheet” that, if
followed, should ensure that GORs evaluate general information, assess the award fund
expenditure approval system, review the accounting and financial system, and perform a project
implementation review.

       AF GORs did not implement this oversight responsibility because AF did not have a
process in place to ensure that site visits were conducted. In addition, GORs stated that they did
not consider GOR responsibilities a priority.

        Without performing and documenting site visits, AF did not have reasonable assurance
that grants were performed in accordance with the proposed budget and program goals.
For example, had the GOR on Grant No. S-LMAQM-12-GR-1217 performed a site visit using
the Site Visit Worksheet prior to OIG’s arrival, she would have determined that the grant
recipient did not have a financial management system that met Federal requirements. Similarly,
the GOR would have also determined that the grant recipient misused the equipment it procured
using grant funds and that some key personnel58 proposed in the agreement were no longer
employed. Further, the grant was significantly behind schedule without any planned remedial
actions to meet the stated goals and objectives in the Notice of Award. OIG believes that these
shortfalls are significant as reported in the following section of this report titled “Insufficient
Identification of High-Risk Grant Recipients” and were the responsibility of the GOR to identify
during her performance monitoring activities and site visits.

        As a result of our site visit related to Grant No. S-LMAQM-12-GR-1217, on
November 21, 2013, we recommended that the GO terminate the grant because the grant
recipient did not follow Federal and Department guidance and did not have the capacity to
execute the grant. On December 3, 2013, the GO terminated the grant, which saved AF
$159,180 in funds that could be put to better use.

57
  Ibid.
58
  According to the “Federal Assistance Policy Handbook,” April 2011, the grant recipient shall not remove or divert
any of the named key personnel from the award without the GO’s consent in writing to ensure that the work is
performed by personnel with the qualifications needed to obtain satisfactory quality.

                                                        33

                                              UNCLASSIFIED
                                               UNCLASSIFIED



        It is imperative that AF GORs conduct and document site visits in accordance with
GPD 16 and GPD 42 to avoid similar scenarios and to ensure proper and timely oversight of
grant recipients’ use of Federal funds and overall grant performance.

        Recommendation 21. OIG recommends that the Bureau of African Affairs develop and
        implement a process to ensure that guidance provided in Grants Policy Directive (GPD)
        16, “Designation of Grants Officer Representative,” and GPD 42, “Monitoring
        Assistance Awards,” is implemented and require Grants Officer Representatives to
        perform and document site visits for each grant recipient commensurate with the
        complexity and value of the grant.

        Management Response: AF concurred with the recommendation, stating that it will
        develop and implement a process to perform and document site visits within 30 days of
        trip completion.

        OIG Reply: OIG considers the recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation demonstrating that AF has
        developed and implemented a process for GORs to perform and document site visits.

Insufficient Identification of High-Risk Grant Recipients

        For the eight grants we reviewed, we found that GORs did not identify high-risk grant
recipients59 for the two grants that qualified as high-risk according to Department policies.
For instance, the recipient of Grant No. S-LMAQM-12-GR-1217 should have been identified
and classified as a high-risk recipient because of business risks, programmatic risks, and
compliance risks. Specifically, the recipient’s financial management system did not meet
Federal standards, required quarterly progress reports and financial reports were not submitted,
and the grant recipient changed key personnel. In another example, the recipient of Grant No.
S-LMAQM-10-GR-005 did not file the OMB Circular No. A-133 audit as required on an annual
basis when expenditures of Federal funding exceeded $500,000 in a given year. Between 2010
and 2013, the grant recipient filed only one A-133 audit report (for 2012), which did not occur
until OIG brought the matter to the attention of the GO and the GOR.

        The purpose of identifying high-risk recipients is to minimize the misuse or loss of
Federal funds by identifying and mitigating “high-risk” elements in Federal assistance programs.
According to GPD 57, “Risk Management,” all offices, bureaus, and posts involved in the
awarding of Federal assistance should develop an effective risk identification and management
strategy, develop mitigation plans that align with program risks, and establish and maintain a
grants monitoring strategy that should be documented and incorporated into the bureau’s policy.



59
  According to GPD 58, “High Risk Recipients,” a high-risk recipient is an applicant or recipient who has a history
of poor performance, is not financially stable, has a management system that does not meet the prescribed standards,
has not complied with the terms and conditions of a previous award, and/or is not otherwise responsible.

                                                        34

                                               UNCLASSIFIED
                                            UNCLASSIFIED

        GPD 58, “High Risk Recipients,” designates the criteria for identifying grant recipients as
high-risk and establishes processes for handling designated recipients to mitigate the risks.
Organizations may be identified as “high risk” for any of the following reasons:

        (1) Recipient’s lack of experience in managing U.S. Government awards,
        (2) Recipient has inadequate management/financial systems in place,
        (3) Recipient has inadequate management controls in place,
        (4) Findings in A-133 or other audits of recipient identify issues that could affect the
            implementation/outcome of the award,60
        (5) Recipient or award activity is located in unusual or difficult operating and/or
            political/security environment, and
        (6) Other concerns.

         According to AF officials, it was not the AF’s practice to identify high-risk grant
recipients. Further, AF did not have an effective risk identification and management strategy in
place, nor did it have a policy related to developing a grant monitoring strategy aligned with
program risks. If AF had had an effective process in place to identify and oversee high-risk
grantees, it would have required the high-risk grantees to develop a corrective action plan61 to
correct the deficiencies identified. Further, high-risk recipients generally require more extensive
monitoring and oversight by the GOR, such as more frequent and more detailed reports or more
site visits. It is imperative that AF incorporate risk management into its grants monitoring
responsibilities to ensure that grantees are performing in accordance with grant terms and
conditions and to minimize the misuse or loss of Federal funds.

        Recommendation 22. OIG recommends that the Bureau of African Affairs develop and
        implement a risk identification and management strategy that is incorporated into policy
        and provide training to its Federal assistance oversight personnel on how to properly
        implement this strategy.

        Management Response: AF concurred with the recommendation, stating that it will
        develop and implement a grant risk-assessment program and will work with the GO to
        provide appropriate training for how to assess grant recipient risks. In addition, AF stated
        that it will use this new program to assess at least semiannually the risk of its active
        grants.

        OIG Reply: OIG considers the recommendation resolved. This recommendation can be
        closed when OIG reviews and accepts documentation demonstrating that AF has
        developed and implemented a grant risk-assessment program and coordinated with the
        GO to provide training on assessing grant recipient risks.


60
   The Department’s Standard Terms and Conditions for Domestic Federal Assistance Awards requires non-Federal
entities that expend $500,000 or more in a year in Federal awards to have a single or program-specific audit
conducted for that year in accordance with the revised circular (Revised OMB Circular No. A-133).
61
   GPD 53, “Corrective Action Plan Procedure,” provides guidance on developing and implementing corrective
action plans.

                                                     35

                                            UNCLASSIFIED
                                 UNCLASSIFIED

Recommendation 23. OIG recommends that the Bureau of African Affairs establish and
maintain a grants monitoring strategy that adopts a risk-management approach and
provide training to its Federal assistance oversight personnel on how to properly
implement this strategy.

Management Response: AF concurred with the recommendation, stating that it will
build up its existing grants monitoring strategy by enhancing risk-management aspects
and will provide the requisite training to implement this approach.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation demonstrating that AF has
established a grants monitoring strategy that adopts a risk-management approach and
provided training to implement this approach.

Recommendation 24. OIG recommends that Bureau of African Affairs Grants Officer
Representatives (GOR) assess the risk of ongoing grants and identify and re-classify
high-risk grant recipients. For each high-risk recipient, GORs should develop a risk
mitigation strategy that includes changes to oversight and a corrective action plan.

Management Response: AF concurred with the recommendation, stating that it will
work with the GO and at least semiannually assess the risk of on-going grants and
identify any high-risk recipients. AF stated that it will develop a risk mitigation plan or
close the grant when appropriate.

OIG Reply: OIG considers the recommendation resolved. This recommendation can be
closed when OIG reviews and accepts documentation demonstrating that AF has
developed a procedure for, at least semiannually, assessing the risk of its ongoing grants
to identify high-risk grant recipients and established a procedure for developing a risk
mitigation plan.




                                         36

                                 UNCLASSIFIED
                                        UNCLASSIFIED


                                 List of Recommendations
Recommendation 1. OIG recommends that the Bureau of African Affairs develop and
implement procedures to ensure that it complies with the Office of the Procurement Executive’s
guidance to nominate eligible Federal Acquisition Certification for Contracting Officer’s
Representative candidates to the contracting officer (CO) for official designation as a contracting
officer’s representative (COR) and ensure that other COR candidates do not fulfill this role
without the CO’s concurrence.

Recommendation 2. OIG recommends that the Bureau of African Affairs (AF) develop and
implement a process to review the Office of the Procurement Executive’s Federal Acquisition
Certification for Contracting Officer’s Representatives list on, at a minimum, a bi-annual basis,
reconcile the list against contracting officer’s representatives who are currently employed by AF,
and request that the Office of the Procurement Executive correct any discrepancies identified.

Recommendation 3. OIG recommends that the Bureau of African Affairs develop and
implement a process to match the reconciled Office of the Procurement Executive’s Federal
Acquisition Certification for Contracting Officer’s Representatives list against planned
procurements during the upcoming year and build or maintain a roster of certified contracting
officer’s representatives to ensure that contracts have continual oversight throughout the
lifecycle of the contract.

Recommendation 4. OIG recommends that the Bureau of African Affairs develop and
implement contingency plans that eliminate lapses in oversight by qualified and trained
contracting officer’s representatives throughout the lifecycle of all contracts.

Recommendation 5. OIG recommends that the Bureau of African Affairs discontinue the use of
site coordinators in locations that allow Government personnel to work within that country and
develop and implement processes to ensure that contracting officer’s representatives and
government technical monitors with the appropriate levels of Federal Acquisition Certification
for Contracting Officer’s Representatives are officially delegated to conduct oversight of their
assigned contracts.

Recommendation 6. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, issue guidance on whether the use of site coordinators by the Bureau of
African Affairs meets Federal regulations and Department of State guidance for contract
administration and oversight.

Recommendation 7. OIG recommends that the Bureau of African Affairs develop a quality
assurance plan template that can be tailored for the unique needs of each contract and develop
and implement a policy to ensure that contracting officer’s representatives use these plans to
perform oversight of contracts.




                                                37

                                        UNCLASSIFIED
                                        UNCLASSIFIED

Recommendation 8. OIG recommends that the Bureau of African Affairs develop guidance that
requires contracting officer’s representatives to perform site visits for each contract recipient at
least once during the life of the contract or annually for those recipients identified as high-risk.

Recommendation 9. OIG recommends that the Bureau of African Affairs follow the
Department’s Foreign Affairs Handbook guidance to ensure that each contracting officer’s
representative documents the findings and results of their site visits and provides this information
to the contracting officer.

Recommendation 10. OIG recommends that the Bureau of African Affairs issue a
memorandum to Embassy Freetown prohibiting the inappropriate use of Government furnished
equipment and require contracting officer’s representatives to monitor the appropriate use of
Government-furnished equipment.

Recommendation 11. OIG recommends that the Bureau of African Affairs establish and
implement policies and procedures to ensure the completeness, accessibility, retention, and
review of contracting officer’s representative files in accordance with the Federal Acquisition
Regulation and the Foreign Affairs Handbook.

Recommendation 12. OIG recommends that the Bureau of African Affairs develop and
implement a process to ensure that certified and technically qualified candidates are nominated
to the Grants Officer for formal designation as a Grants Officer Representative throughout the
lifecycles of all grant awards.

Recommendation 13. OIG recommends that the Bureau of African Affairs develop and
maintain a list of certified Grants Officer Representative (GOR) candidates that also identifies
each candidate’s areas of technical expertise, certification appointments, and dates of continued
training and that it reviews ongoing grants semiannually to ensure active GORs are
administering and overseeing its grants.

Recommendation 14. OIG recommends that the Bureau of African Affairs maintain an
inventory of its grants and their implementation dates with corresponding Grants Officer
Representatives (GOR) and that it develop and implement pre-departure planning activities for
its GORs in accordance with the Federal Assistance Policy Handbook.

Recommendation 15. OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, conduct a management review of grants administered by the Bureau of
African Affairs (AF) in accordance with Grants Policy Directive 34, “Grants Management
Reviews,” and that it provide training as necessary to AF’s administrative and oversight
personnel.

Recommendation 16. OIG recommends that the Bureau of African Affairs utilize Grants Policy
Directive 28, “Roles and Responsibilities for the Award and Administration of Federal
Assistance,” and the Standard Terms and Conditions for Domestic and Overseas Federal
Assistance Awards to develop and implement standard operating procedures that document

                                                38

                                        UNCLASSIFIED
                                        UNCLASSIFIED

responsibilities of the Grants Officer Representative for monitoring the terms and conditions of
all grant awards, including promptly notifying the Grants Officer (GO) of all changes that
require the GO’s attention.

Recommendation 17. OIG recommends that the Bureau of African Affairs develop and
implement procedures to ensure that all future Notices of Award include appropriate
performance indicators and require that grantees provide performance reports that measure
program achievements in comparison to performance indicators and program objectives.

Recommendation 18. OIG recommends that the Bureau of African Affairs (AF) develop a
monitoring plan template that is consistent with the requirements detailed in Grants Policy
Directive 42, “Monitoring Assistance Awards,” and that it develop and implement a process to
ensure that monitoring plans are utilized to meet the AF’s oversight needs for all future grant
awards.

Recommendation 19. OIG recommends that the Bureau of African Affairs (AF) develop and
implement a process to ensure that, if grant recipients do not submit timely quarterly, annual, and
final performance and financial reports, Grants Officer Representatives will implement remedies
as required by the Foreign Affairs Handbook, the Federal Assistance Policy Handbook, and AF’s
grant agreements.

Recommendation 20. OIG recommends that the Bureau of African Affairs develop and
implement a process to ensure that the requirements in Grants Policy Directive 16, “Designation
of Grants Officer Representative,” for the Grants Officer Representatives to review, analyze, and
provide a written assessment of the required recipient Program Progress and Financial Status
Reports are implemented.

Recommendation 21. OIG recommends that the Bureau of African Affairs develop and
implement a process to ensure that guidance provided in Grants Policy Directive (GPD) 16,
“Designation of Grants Officer Representative,” and GPD 42, “Monitoring Assistance Awards,”
is implemented and require Grants Officer Representatives to perform and document site visits
for each grant recipient commensurate with the complexity and value of the grant.

Recommendation 22. OIG recommends that the Bureau of African Affairs develop and
implement a risk identification and management strategy that is incorporated into policy and
provide training to its Federal assistance oversight personnel on how to properly implement this
strategy.

Recommendation 23. OIG recommends that the Bureau of African Affairs establish and
maintain a grants monitoring strategy that adopts a risk-management approach and provide
training to its Federal assistance oversight personnel on how to properly implement this strategy.

Recommendation 24. OIG recommends that Bureau of African Affairs Grants Officer
Representatives (GOR) assess the risk of ongoing grants and identify and re-classify high-risk



                                                39

                                        UNCLASSIFIED
                                       UNCLASSIFIED

grant recipients. For each high-risk recipient, GORs should develop a risk mitigation strategy
that includes changes to oversight and a corrective action plan.




                                               40

                                       UNCLASSIFIED
                                               UNCLASSIFIED


                                                                                                      Appendix A
                                        Scope and Methodology
        The Department of State (Department), Office of Inspector General (OIG), Office of
Audits, conducted this performance audit to evaluate whether Bureau of African Affairs (AF)
personnel adequately administered and oversaw its contracts and grants. The primary objective
of this audit was to determine to what extent AF’s administration and oversight of contracts and
grants were in accordance with applicable Federal laws and Department guidance.

        The Office of Audits performed fieldwork from July to December 2013 at AF. OIG also
conducted fieldwork at the following overseas locations: Embassy Freetown (Sierra Leone),
Embassy Monrovia (Liberia), Embassy Kampala (Uganda), and Embassy Nouakchott
(Mauritania). OIG conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that OIG plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objective. OIG believes that the evidence obtained provides a
reasonable basis for the findings and conclusions based on the audit objective.

        To obtain background for this audit, OIG researched and reviewed Federal laws and
regulations, as well as internal Department policies and procedures related to acquisitions.
Specifically, OIG reviewed applicable sections of the Code of Federal Regulations, the Federal
Acquisition Regulation, and Office of Management and Budget policies.1 In addition, OIG
reviewed applicable sections of the Department’s policies and procedures, including the Federal
Assistance Policy Handbook, Standard Terms and Conditions for Domestic Federal Assistance
Awards, Standard Terms and Conditions for Overseas Federal Assistance Awards, Foreign
Affairs Handbook, the Foreign Affairs Manual, Grants Policy Directives, Department Notices,
Department of State Acquisition Regulations, and Procurement Information Bulletins.

        In order to gain an understanding of the administration and oversight of contracts and
grants within AF, OIG interviewed officials within AF, the Bureau of Administration, Office of
the Procurement Executive, and the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management (A/LM/AQM). We also interviewed contracting officer’s
representatives (COR), grants officer representatives (GOR), site coordinators, and contractor
and grant recipients associated with the sample. In addition, OIG reviewed documentation to
substantiate statements made during interviews, including COR delegation memorandums,
Federal Acquisition Certification for Contracting Officer’s Representatives (FAC-COR)
certificates, contract files, COR files, GOR files, and invoices.




1
 OMB Circular No. A-11, Preparation, Submission, and Execution of the Budget; OMB Policy Memorandum,
Revisions to the Federal Acquisition Certification for Contracting Officer’s Representatives, dated Sept. 6, 2011;
and OMB Policy Memorandum, The Federal Acquisition Certification for Contracting Officer Technical
Representatives, dated Nov. 26, 2007.

                                                         41

                                               UNCLASSIFIED
                                             UNCLASSIFIED


Prior OIG Reports

        OIG issued an inspection report2 in 2009 and an audit report3 in 2010 related to AF’s
administration and oversight of contracts. In addition, OIG recently issued an audit report4
related to Department-wide COR oversight, which addressed COR-related deficiencies within
AF. The inspection report concluded that there were not enough CORs within AF’s Office of
Regional and Security Affairs to effectively administer a particular program’s contracts.
To address that deficiency, OIG recommended that AF hire at least five additional full-time
employees with contracting skills to serve as program managers and CORs. The report also
determined that AF’s CORs did not receive training as required by the Office of Management
and Budget and recommended that AF, in coordination with the Office of the Procurement
Executive, require its CORs to take refresher COR training every 2 years and comply with
FAC-COR requirements. As of September 3, 2010, the OIG closed all but one recommendation
based on their implementation.

       The 2010 audit report concluded that ineffective contractor oversight and monitoring by
AF was caused by the COR’s lack of experience in monitoring construction contracts.
OIG recommended that AF have sufficient on-site contract technical support to regularly monitor
and report on contract progress. Based on its implementation, OIG closed this recommendation
on January 21, 2011.

       In the recent, January 2014, audit report related to the Department’s selection of CORs,
OIG concluded that Department-wide COR workforce management and planning needed to be
improved and COR-related policies required implementation guidance. OIG also found specific
weaknesses related to AF’s COR workforce management and made recommendations to
improve contract administration within AF. OIG resolved one of the three recommendations
addressed to AF; however, the recommendation remains open for implementation.

Use of Computer-Processed Data

      OIG used computer-generated data obtained from the Federal Procurement Data System
(FPDS) – Next Generation to obtain the population of contracts awarded using AF funds.
However, after conducting tests of the data, we found anomalies.

        To assess the reliability of computer-processed data, OIG interviewed A/LM/AQM
officials to obtained AF-funded contracts that were not identified by FPDS – Next Generation.
OIG performed a manual reconciliation of contracts identified by A/LM/AQM with contracts
identified by FPDS – Next Generation and found inconsistencies between them. For example,
OIG identified two additional cost-reimbursement AF-funded contracts that were not included in
the FPDS – Next Generation list of contracts.

2
  Inspection of the Bureau of African Affairs, (ISP-I-09-63, Aug. 2009).
3
  Audit of Allegations Pertaining to Contract With DynCorp International for the Security Sector Transformation
Project in South Sudan, Africa, (AUD/SI-10-23, Aug. 2010).
4
  Audit of Department of State Selection and Positioning of Contracting Officer’s Representatives, (AUD-CG-14-07,
Jan. 2014).

                                                       42

                                             UNCLASSIFIED
                                               UNCLASSIFIED



       Although OIG encountered some data problems, we believe the additional steps
performed to obtain information for the contracts reviewed were sufficient to support the
findings and provide a reasonable basis for determining the deficiencies identified in the report.

Work Related to Internal Controls

        OIG performed steps to assess the adequacy of internal controls related to the areas
audited. For example, OIG reviewed eight contracts and eight grants to determine whether AF’s
CORs and GORs appropriately administered and monitored contracts and grants. OIG also
reviewed Department guidance, policies, procedures, and related controls to ensure that such
guidance, policies, and procedures were implemented and followed by AF officials and oversight
personnel. Significant deficiencies OIG identified are presented in the Audit Results section of
the report.

Detailed Sampling Methodology

       OIG’s sampling objective was to determine whether AF’s administration and oversight of
contracts and grants it funded were in accordance with Federal laws and Department guidance.

        Population

       OIG obtained a list of contract actions funded by AF during FYs 2010–2012 from the
FPDS – Next Generation. According to the list, AF contract actions during this period totaled
approximately $359 million. OIG narrowed the list by focusing on cost-reimbursement,
combination,5 and time and materials and reconciled information from the list with information
from A/LM/AQM’s contract files and identified two additional contracts that we included in our
sample. In addition, OIG obtained a list of grants from A/LM/AQM that were funded by AF
during FYs 2010–2012. According to that list, 44 grants, totaling $70 million, were funded.

        Sample Selection of AF-Funded Contracts and Grants

        OIG used judgment sampling to select the contracts and grants to test. The primary
considerations in selecting contracts and grants included the greatest dollar value and the place of
performance. Contracts and grants performed in Sudan, the Democratic Republic of Congo, and
Somalia were excluded from the sample because of security concerns and OIG’s inability to
travel to those areas. To determine the contracts and grants included in the sample, OIG
identified the place of performance with the highest dollar values of contracts and grants
combined. These reviews of contracts and grants were performed in four countries: Liberia,
Mauritania, Sierra Leone, and Uganda. The eight contracts and eight grants selected for review
are shown in Tables 1 and 2, respectively.


5
  Combination contracts use multiple types of contract line items, including firm-fixed price and cost-reimbursement
types.

                                                        43

                                               UNCLASSIFIED
                                          UNCLASSIFIED


Table 1. Sample Selection of AF-Funded Contracts
     Contract Number       Place of Performance                Award Date           Contract Amount
    1   SAQMMA12F0313          Sierra Leone                January 23, 2012         $           547,929.00
    2   SAQMMA11F3349a         Sierra Leone                September 8, 2011                    527,194.00
    3   SAQMMA12F4836          Sierra Leone                September 29, 2012                 5,320,004.65
    4   SAQMMA12F0545          Liberia                     February 1, 2012                     174,374.38
    5   SAQMMA12F1583          Liberia                     May 3, 2012                        3,404,396.07
    6   SAQMMA10F0569b         Liberia                     January 26, 2010                  16,684,285.80
    7   SAQMMA12F2030          Mauritania                  June 20, 2012                        656,330.00
    8   SAQMMA12F4917          Mauritania                  September 30, 2012                 7,523,859.00
                                              Total of AF-Funded Contracts          $       34,838,372.90
a
  Contract SAQMMA11F3349 replaced Contract SAQMMA12F1630 in our sample because of coverage in OIG’s
Jan. 2014 report AUD-CG-14-07.
b
  Contract SAQMMA10F0569 was identified by A/LM/AQM as an AF-funded combination contract that replaced
Contract SAQMPD05F4651 in our sample. During FY 2010-2012, A/LM/AQM deobligated AF funds and did not
obligate funds on this contract, which was awarded in 2005.
Source: OIG generated Table 1 based on data obtained from the FPDS – Next Generation and reconciled with
information from A/LM/AQM records.

Table 2. Sample Selection of AF-Funded Grants
                                 Place of
       Grant Number            Performance                  Award Date                      Funding
    1   S-LMAQM-12-CA-1100      Liberia                  March 23, 2012                 $        440,807.00
    2   S-LMAQM-11-GR-005       Liberia                  December 13, 2010                       356,207.27
    3   S-LMAQM-11-GR-071       Mauritania               September 26, 2011                      267.300.00
    4   S-LMAQM-11-GR-047       Mauritania               September 15, 2011                    2,868,030.00
    5   S-LMAQM-12-GR-1217      Uganda                   September 22, 2012                      199,950.00
    6   S-LMAQM-10-GR-005       Uganda*                  December 1, 2010                      5,946,000.00
    7   S-LMAQM-10-GR-019       Uganda                   February 20, 2010                     4,000,000.00
    8   S-LMAQM-11-CA-084       Uganda                   September 27, 2011                   18,074,851.00
                                              Total of AF-Funded Grants                 $    32,153,145.27
* Grant S-LMAQM-10-GR-005 was performed in Uganda but supplies benefited Somalia.
Source: OIG generated Table 2 based on data provided by A/LM/AQM.




                                                   44

                                          UNCLASSIFIED
                                                     UNCLASSIFIED


                                                                             Appendix B
Bureau of Administration, Office of the Procurement Executive’s Response to Draft Report


                                                                     United States Department of State

                                                                     Washington, D.C. 20520

                                                                     June 26, 2014


          MEMORANDUM

          TO:                        OIG/AUD- Norman P. Brown

          FROM:                      A/OPE- Corey Rindner,...,...-

          SUBJECT: Draft Report on Administration and Oversight ofContracts and
                   Grants Within the Bureau ofAfrican Affairs


          Thank you for allowing us to comment on the subject, draft report.

          The following is the A/OPE response to Recommendations 6 and 15. Eric Moore
          is the point of contact for recommendation number 6. He can be reached at 703-
                [Redacted] (b) (6)     [Redacted] (b) (6)
          875-       or via email                         @state.gov. Jeffrey Johnson is the point of contact
                                                                                          [Redacted] (b) (6)
          for recommendation number 15 and he can be reached on 703-812-                           or via
          email [Redacted] (b) (6)@state.gov.

          Recommendation 6: OIG recommends that the Bureau of Administration, Office
          of the Procurement Executive, issue guidance on whether the use of site
          coordinators by the Bureau of African Affairs meets Federal regulations and
          Department of State guidance for contract administration and oversight.

          A Bureau Response: OPE concurs with Recommendation 6 and will issue
          guidance on whether the use of site coordinators by the Bureau of African Affairs
          meets Federal regulations and Department of State guidance for contract
          administration and oversight.

          Recommendation 15: OIG recommends that the Bureau of Administration,
          Office of the Procurement Executive, conduct a management review of grants
          administered by the Bureau of African Affairs (AF) in accordance with Grants
          Policy Directive 34, "Grants Management Reviews," and that it provide training as
          necessary to AF ' s administrative and oversight personnel.




                                                             45

                                                     UNCLASSIFIED
                              UNCLASSIFIED




A Bureau Response: The Bureau of Administration concurs with the
recommendation and will conduct a domestic grants management review of grants
administered by the Bureau of African Affairs by spring of2015, pending available
resources. The Bureau of Administration will consult with the Bureau of African
Affairs on the coordination and delivery of federal assistance training to AF
administrative and oversight personnel in Fiscal Year 2015.




                                      46

                              UNCLASSIFIED
                                       UNCLASSIFIED




                                                  [Redacted] (b) (6)
Drafted: A/OPE- SJohnston, 703 -875-

File:  0:\Administrative\AOPE\Policy Division\OIG\AF Admin and Oversight of Contracts and Grants\ Response
to Draft AF Grants and Contracts Audit 6-23- 14.doc


Clearances:

A/OPE - EMoore Cleared 6/26/ 14
A/OPE - JJohnson Cleard 6/26/ 14
AIFO- RBemish Cleared 6/27114
AF/RSA- MBittrick Cleared 6/26/ 14
AlEX - JMcGuire Cleared 6/26/ 14




                                                   47

                                       UNCLASSIFIED
                                  UNCLASSIFIED


                                                                                               Appendix C
         Bureau of African Affairs’ Response to Draft Report




                                                      United States Department ofState

                                                      Washinf!ton. D.C. 20520

                                                     July 7, 2014
UNCLASSIFIED

TO:            OIG/AUD- Norman P. Brown

FROM:          AF - Linda Thomas-Greenfield       ~
SUBJECT:       Response to OIG Audit Administration and Oversight of Contracts and
               Grants within the Bureau ofAfrican Affairs

We have reviewed the initial report of the subject audit and offer the fo llowing
comments.

Finding A. Management Comments: Concur. The Africa Bureau agrees that it could do
a more compete job of documenting its contract oversight activities. However, it should
be noted that each of the active contracts or task orders has a full- time COR assigned, all
of whom actively manage their contractors. Some of the task orders selected were
completed and the COR assigned retired, which as the audit pointed out, made obtaining
oversight records difficult. Additionally, CORs were performing many contract
administration functions. The Bureau is comfortable with the level of oversight provided,
just not the manner in which it is documented. We will improve as noted in our answers
to the below recommendations.

Recommendation 1: OIG recommends that the Bureau of African Affairs develop and
implement procedures to ensure that it complies with the Office of Procurement
Executive guidance to nominate eligible Federal Acquisition Certification for Contracting
Officer's Representative candidates to the contracting officer (CO) for official
designation as a contracting officer' s representative (COR) and ensure that other COR
candidates do not fulfill this role without the CO's concurrence.

Management Response: Concur. The Bureau of African Affairs will work with the
responsible Contracting Officer to establish additional internal procedures ensuring that
an adequate level of contract administration oversight is provided, complying with the
Office of Procurement Executive guidance. While the contracting officer is ultimately
responsible for providing contractor oversight (FAR 1.602-2), our Bureau will continue
to nominate CORs to provide the appropriate level of contract administration throughout
the lifecycle of each contract (ECD: 1 Dec 14)

Recommendation 2 : OIG recommends that the Bureau of African Affairs (AF) develop
and implement a process to review the Office of Procurement Executive's Federal
Acquisition Certification for Contracting Officer's Representatives list on, at a minimum,
a bi-annual basis, reconcile the list against contracting officer's representatives who are


                                    UNCLASSIFIED




                                             48

                                  UNCLASSIFIED
                                 UNCLASSIFIED



                                    UNCLASSIFIED
                                           -2-

currently employed by AF, and request that the Office of the Procurement Executive
correct any discrepancies identified.
Management Response: Concur. The Bureau of African Affairs (AF) will develop and
implement a process to verify at least semiannually, their active list of Contracting
Officer's Representatives, validating that all open, relevant contracts, and task orders
have current, AF employed CORs assigned. Our initial analysis found that all current
task orders and contracts have certified CORs assigned. However, when discrepancies
are noted, the AF Bureau will work with the Office of the Procurement Executive to
correct them. (ECD: 1 Dec 14)

Recommendation 3: OIG recommends that the Bureau of African Affairs develop and
implement a process to match the reconciled Office of Procurement Executive' s Federal
Acquisition Certification for Contracting Officer's Representatives list against planned
procurements during the upcoming year and build or maintain a roster of certified
contracting officer representatives to ensure that contracts have continual oversight
throughout the lifecycle of the contract.

Management Response: Concur. The Bureau of African Affairs will formalize its
process to reconcile the Office of Procurement Executive' s Federal Acquisition
Certification for Contracting Officer' s Representatives list against planned procurements
during the upcoming year to make certain that all contracts and task orders have continual
oversight throughout the lifecycle of the contract. This process will build upon an
existing procedure whereby Bureau management nominates CORs to the contracting
officer, who then appoints CORs before issuing a contract or task order. (FAR 1.602-2)
This process will be performed in conjunction with our semiannual verification of active
Contracting Officer's Representatives (CORs) as described in the response to
Recommendation 2 above. (ECD 1 Dec 14)

Recommendation 4: OIG recommends that the Bureau of African Affairs develop and
implement contingency plans that eliminate lapses in oversight by qualified and trained
Contracting Officer Representatives (CORs) throughout the lifecycle of all contracts.

Management Response: Concur. In coordination with AILM/AQM, the Bureau of
African Affairs will establish additional procedures and contingency plans that will
ensure that CORs are properly certified, nominated, and designated and that CORs
remain fully aware of their roles and responsibilities in conducting adequate oversight of
contracts. Once recommendations 1-3 are implemented, the AF Bureau will have
additional proper procedures and contingency plans in place to eliminate any chance that
there will be a lapse in COR oversight throughout the contract lifecycle. (ECD 1 Dec 14)

Recommendation 5: OIG recommends that the Bureau of African Affairs discontinue
the use of site coordinators in locations that allow Government personnel to work within
that country and develop and implement processes to ensure that contracting officer's
representatives and govenunent technical monitors with the appropriate levels of Federal
Acquisition Certification for Contracting Officer's Representatives are officially
delegated to conduct oversight of their assigned contracts.


                                    UNCLASSIFIED




                                            49

                                 UNCLASSIFIED
                                 UNCLASSIFIED



                                    UNCLASSIFIED
                                           -3-

Management Response: Concurrence pending. The Bureau of African Affairs will
adjust its use of site coordinators based on the results of the A/OPE review and
clarification of site coordinator responsibilities. (See recommendation 6). Furthennore,
in response to audit report AUD-CD-14-7, Selection and Positioning of Contracting
Officer's Representatives, the Bureau will review all available hiring mechanisms
(additional FTE, LNA, PSC, etc.) for these positions and pursue hiring CORs under the
most viable option. AF notes it does not currently have personal services contracting
authority to hire PSCs. Pending identification of hiring authority, the Bureau will
reinforce measures to ensure that site coordinators do not perform inherently
governmental duties. Forward basing these personnel in Afiica will allow them to
oversee site coordinators daily activities, and take over those functions deemed inherently
governmental. In countries where the program load would not justify a full-time
government technical monitor, the CORs will work with non-COR certified government
inspectors to coordinate regular program visits and oversight. Once these positions are
approved through AQM, and filled, then an equivalent number of contract site
coordinator positions will be defunded. Detennining where these personnel will be
positioned in Afiica and which site coordinator positions will be retained will be made at
the time of hiring, according to the changing Afiican conflict environment and DoS
needs. (ECD 1 Dec 14)

Recommendation 6: OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, issue guidance on whether the use of site coordinators by the
Bureau of Afiican Affairs meets Federal regulations and Department of State guidance
for contract administration and oversight.

Management Response: NOPE POC

Recommendation 7: OIG recommends that the Bureau of Afiican Affairs develop a
quality assurance plan template that can be tailored for the unique needs of each contract
and develop and implement a policy to ensure that Contracting Officer's Representatives
use· these plans to perform oversight of contracts.

Management Response: Concur. In coordination with NLM/AQM, the Bureau of
African Affairs will develop a contract oversight template that can be used when
appropriate to oversee contractors. Additionally, the Bureau began incorporating
standard project monitoring and control language into all relevant sections of a project
scope of work in 2013. However, it is important to note that not all contacts or task
orders require a quality assurance plan (14 FAH-2 H-523). Additionally, most quality
assurance plans are developed using the contractor developed Quality Assurance
Surveillance Plan (QASP) (FAR 37.604). Therefore, when COR quality assurance plans
are deemed appropriate, the Bureau will work with the Contracting Officer to require
contractors to deliver a QASP, which will be used to help develop the COR QA plan.
(ECD I Dec 14)




                                    UNCLASSIFIED




                                            50

                                 UNCLASSIFIED
                                  UNCLASSIFIED



                                     UNCLASSIFIED
                                            -4-

Recommendation 8: OIG recommends that the Bureau of African Affairs develop
guidance that requires Contracting Officer's Representatives to perform site visits for
each contract recipient at least once during the life of the contract or annually for those
recipients identified as high risk.

Management Response: Concur. The Bureau of African Affairs will formalize its
existing guidance using 14 FAH-2 H-522.3 criteria and perform site visits for all large
and complex contracts. AF CORs are currently in the practice of performing site visits at
least once per year except when the contract is small, low risk, performed in restricted
locations or does not contain complex provisions. (1 Dec 14)

Recommendation 9: OIG recommends that the Bureau of African Affairs follow the
Department's Foreign Affairs Handbook guidance to ensure that each contracting officer
representative documents the findings and results of their site visits and provides this
information to the contracting officer.

Management Response: Concur. The Bureau of African Affairs documents site visits
currently through a detailed trip report, including pictures. However, the Bureau will
establish procedures to ensure certain elements of each site visit are documented and
centrally filed within 30 days after completion. Additionally, we will coordinate with
AILM/AQM to request that the Contracting Officer review our COR files at least
semiannually. (ECD 1 Oct 14)

Recommendation 10: OIG recommends that the Bureau of African Affairs issue a
memorandum to Embassy Freetown prohibiting the inappropriate use of Government
Furnished Equipment (GFE) and require Contracting Officer's Representatives (CORs)
to monitor the appropriate use of GFE.

Management Response: Concur. The Bureau of African Affairs will request the
contracting officer for the AFRICAP Contract render another decision on the appropriate
use of GFE in question. AQM senior representatives, including the contracting officer,
discussed GFE issues with Embassy Freetown on August 29, 2013, concluding that this
equipment was appropriately used only as emergency backups in this austere
environment. The COR conducted follow-up discussions with the embassy officials
during a Freetown site visit from November 19 - 22,2013 to ensure embassy
independence from contractors who managed GFE and confirm that the GFE equipment
was only used as intended. (1 Nov 2014)

Recommendation 11: OIG recommends that the Bureau of African Affairs establish and
implement policies and procedures to ensure the completeness, accessibility, retention,
and review of contracting officer's representative files in accordance with the Federal
Acquisition Regulation and the Foreign Affairs Handbook.

Management Response: Concur. The Bureau of African Affairs bas extensive files
documenting its COR activities. However, it agrees with audit and the Bureau will
establish and implement policies and procedures to retain complete, accessible COR files


                                     UNCLASSIFIED




                                             51

                                  UNCLASSIFIED
                                 UNCLASSIFIED



                                    UNCLASSIFIED
                                           -5-

in a central location using 14 FAH-2 H-517 as a guide. A semiannual review of these
files will be made by the AF Bureau to make certain they are properly maintained. (ECD:
1 Dec 14)

Finding B . Management Response: Concur. While adjustments need to be made to
uphold and institutionalize our grant administration efforts, we devote considerable time
and log significant miles each year in managing our wide range of projects and grants in
complex and often hostile environments (e.g., Somalia and the DRC). With the exception
of a few unfortunate instances, we believe that our contracts and grants have largely been
successful and helped to advance the USG national security interest. Additionally, it is
important to note that four of the eight grants were completed and closed at the time of
audit preventing the auditor from discussing the specific grants management program
with an active GOR. It would be helpful to the independent reader of the audit report if
these background facts were included.

Recommendation 12: OIG recommends that the Bureau of African Affairs develop and
implement a process to ensure that certified and technically qualified candidates are
nominated to the Grants Officer for formal designation as a Grants Officer Representative
throughout the lifecycle of all grants awards.

Management Comments: Concur. The Bureau of African Affairs will build upon its
existing procedures and processes to ensure that certified and technically qualified
candidates are nominated as Grants Officer Representatives. In conjunction with
recommendations 13 and 14, the Bureau is assessing its current grants and planned future
grants to determine who and how many GORs will be needed. As part of this process,
the Africa Bureau will validate that the Bureau GORs are included in the A/OPE' s
centralized GOR database. Additionally, we will coordinate with A/LM/AQM to request
that the Grants Officer reviews our GOR files at least semiannually. We will also
coordinate with both the Grants Officer and A/OPE to provide the necessary training for
our Grants Officers. (ECD: 1 Dec 14)

Recommendation 13: OIG recommends that the Bureau of African Affairs develop and
maintain a list of certified Grants Officer Representatives (GOR) candidates that also
identifies each candidate's area of technical expertise, certification appointments, and
dates of continued training and that it reviews ongoing grants semiannually to ensure
active GORs are administering and overseeing its grants.

Management Comments: Concur. The Bureau of African Affairs, in conjunction with
Recommendation 12 above, will work with A/OPE to determine if their centralized GOR
database can maintain all of the recommended information fer each GOR candidate.
Additionally, our list of active grants will be reviewed semiannually to make certain that
they have the appropriate oversight and coverage. (ECD 1 Dec 14)

Recommendation 14: OIG recommends that the Bureau of African Affairs maintain an
inventory of its grants and their implementation dates with corresponding Grants Officer



                                    UNCLASSIFIED




                                            52

                                 UNCLASSIFIED
                                UNCLASSIFIED



                                    UNCLASSIFIED
                                          -6-
Representatives (GOR) and that it develop and implement pre-departure planning
activities for its GORin accordance with Federal Assistance Policy Handbook.

Management Comments: Concur. The Bureau of African Affairs will work with NOPE
to use their existing Grants Solution database to maintain an inventory of its grants and
their implementation dates along with these grants designated GORs. Additionally, the
Bureau will implement procedures that will ensure a smooth transition of GOR duties for
active grants. (ECD 1 Dec 14)

Recommendation 15: OIG recommends that the Bureau of Administration, Office of the
Procurement Executive, conduct a management review of grants administered by the
Bureau of African Affairs (AF) in accordance with Grants Policy Directive 34, "Grants
Management Reviews," and that it provide training as necessary to AF's administrative
and oversight personnel.

Management Comments: NOPE comments.

Recommendation 16: OIG recommends that the Bureau of African Affairs utilize Grants
Policy Directive 28, ''Roles and Responsibilities for the Award and Administration of
Federal Assistance," and the Standard Terms and Conditions for Domestic and Overseas
Federal Assistance Awards to develop and implement standard operating procedures that
document responsibilities of the Grants Officer Representative for monitoring the terms
and conditions of all grant awards, including promptly notifying the Grants Officer (GO)
of all changes that require the GO's attention.

Management Comments: Concur. The Bureau of African Affairs will use existing Grants
Policy Directives to further develop and implement standard operating procedures and
tailor the AF Bureau's standard operating procedures for monitoring all grant awards.
(ECD 1 Dec 14)

Recommendation 17: OIG recommends that the Bureau of African Affairs develop and
implement procedures to ensure that all future Notices of Award include appropriate
performance indicators and require that grantees provide performance reports that
measure program achievements in comparison to performance indicators and program
objectives.

Management Comments: Concur. The Bureau of African Affairs will further develop
and implement procedures to measure performance against a grant's purpose.
Specifically, the Bureau with work with the Grants Officer to implement or change Grant
Documents to include requirements that grantees deliver performance reports measuring
achievements in comparison to identified performance indicators and program objectives.
(ECD 1 Dec 14)

Recommendation 18: OIG recommends that the Bureau of African Affairs (AF) develop
a monitoring plan template that is consistent with the requirements detailed in Grants
Policy Directive 42, "Monitoring Assistance Awards," and that it develop and implement


                                   UNCLASSIFIED




                                           53

                                UNCLASSIFIED
                                 UNCLASSIFIED



                                     UNCLASSIFIED
                                           - 7-

a process to ensure that monitoring plans are utilized to meet AF's oversight needs for all
future grant awards.

Management Comments: Concur. The Bureau of African Affairs will develop further
procedtires and a grants monitoring template to help GORs ensure that grants are meeting
performance objectives. Additionally, the Bureau will require that GORs work with the
Grants Officer to develop specific grants monitor plans tailored to meet individual grant
performance goals. (ECD 1 Dec 14)

Recommendation 19: OIG recommends that the Bureau of African Affairs develop and
implement a process to ensure that, if grant recipients do not submit timely quarterly,
annual, and final performance and financial reports, Grants Officer Representatives will
implement remedies as required by the Foreign Affairs Handbook, the Federal Assistance
Policy Handbook and AF grant agreements.

Management Comments: Concur. The Bureau of African Affairs will develop additional
procedures and continue to monitor its grants recipients and implement remedies as
required by applicable policy and guidance when grant recipients do not file the requisite
reports and financial reports. Using 4 FAH-3 H-674, "Delinquent Reports" as a guide, the
Bureau will follow-up with the grant recipient within the first 30 days of delinquency,
again with a 60 day delinquency letter and then suspend payments after the third and final
notice letter has been sent at the 90 day delinquency point. (ECD 1 Dec14)

Recommendation 20: OIG recommends that the Bureau of African Affairs develop and
implement a process to ensure that the requirements in Grants Policy Directive 16,
"Designation of Grants Officer Representatives," for the Grants Officer Representatives
to review, analyze, and provide a written assessment of the required recipient Program
Progress and Financial Status Reports are implemented.

Management Comments: Concur. The Bureau of African Affairs will develop and
formalize its existing process to review, analyze and provide a written assessment of
Grantee Program Progress and Financial Status Reports. Guidance provided in both
Grants Policy Directive (GPO) 16, "Designation of Grants Officer Representatives" and
GPO 42, ''Monitoring'' will be used to develop this internal policy. (ECD 1 Dec 14)

Recommendation 21: OIG recommends that the Bureau of African Affairs develop and
implement a process to ensure that guidance provided in Grants Policy Directive (GPO)
16, "Designation of Grants Officer Representative," and GPO 42, "Monitoring Assistance
Awards," is implemented and require Grants Officer Representatives to perform and
document site visits for each grant recipient commensurate with the complexity and value
of the grant.

Management Comments: Concur. The Bureau of African Affairs will develop and
implement a process to perform and document site visits within 30 days after they are
completed. However, it is important to note, that some site visits are performed by the
Grants Officer and therefore, the site visit documentation will not be retained by the


                                    UNCLASSIFIED




                                            54

                                 UNCLASSIFIED
                                 UNCLASSIFIED



                                     UNCLASSIFIED
                                           -8-

Africa Bureau. Using the risk assessment procedures established resulting from
recommendation 22, the Bureau will identify all high risk grants. Once identified, site
visits will be performed at least once during the life of a grant, except when prohibited
because work is being accomplished in restricted locations (as directed by GPD 16,
"Designation of Grants Officer Representatives"). (ECD 1 Dec 14)

Recommendation 22: OIG recommends the Bureau of African Affairs develop and
implement a risk identification and management strategy that is incorporated into policy
and provide training to its Federal assistance oversight personnel on how to properly
implement this strategy.

Management Comments: Concur. The Bureau of African Affairs will develop and
implement a grant risk assessment program and work with the Grants Officer to provide
appropriate training for how to properly assess Grant Recipient risks. The Bureau will
work use this new program to at least semiannually risk assess all of its managed grants
using the grants inventory list developed resulting from recommendation 14 in this
report. (ECD 1 Dec 14)

Recommendation 23: OIG recommends the Bureau of African Affairs establish and
maintain a grants monitoring strategy that adopts a risk-management approach and
provide training to its Federal assistance oversight personnel on how to properly
implement this strategy.
Management Comments: Concur. The Bureau of African Affairs will build up its
existing grants monitoring strategy by enhancing risk-management aspects and providing
the requisite training to implement this approach. The Bureau will use this refined
approach to at least semi.annually risk assess all of its managed grants using the grants
inventory list developed resulting from recommendation 14 in this report. (ECD 1 Dec
14)
Recommendation 24: OIG recommends that the Bureau of African Affairs Grants
Officer Representative (GOR) assess the risk of ongoing grants and identify and re-
classify high-risk grant recipients. For each high-risk recipient, GORs should develop a
risk mitigation strategy that includes changes to oversight and a corrective action plan.

Management Comments: Concur. The Bureau of African Affairs will work with the
Grants Officer and assess the risks of on-going grants and identify any high risks
recipients at least semiannually. This assessment will be made using the grants inventory
list developed resulting from recommendation 14 in this report. When appropriate, a risk
mitigation plan will be developed. In other instances, like in the instance of the non
performing high risk grant identified in the audit report, S-LMAQM-12-GR-1217, the
grant will be closed. (ECD 1 Dec 14)




                                    UNCLASSIFIED




                                            55

                                 UNCLASSIFIED
                           UNCLASSIFIED



                              UNCLASSIFIED
                                    -9-



Approved: AF- Linda Thomas-Greenfield

Drafted:AF/RSA:MBittrick

Cleared:
AF- Robert Jackson
AF/EX: MTabler-Stone-ok
AFIEPS :PBarlerin-ok
AFIPDPA:NFellows-ok
NOPE:SJohnson-ok




                             UNCLASSIFIED




                                    56

                           UNCLASSIFIED
                                   UNCLASSIFIED


Major Contributors to This Report

Melinda Perez, Director
Division of Contracts and Grants
Office of Audits

Mike Vennemann, Audit Manager
Division of Contracts and Grants
Office of Audits

Chris Groubert, Auditor
Division of Contracts and Grants
Office of Audits

Brian Jones, Auditor
Division of Contracts and Grants
Office of Audits

Phillip Ropella, Auditor
Division of Contracts and Grants
Office of Audits

Patrick Sampson, Auditor
Division of Contracts and Grants
Office of Audits




                                        57

                                   UNCLASSIFIED
        UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
           oig.state.gov


   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




                58

        UNCLASSIFIED
